Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       OUTSIDE ACTIVITIES

       OF FDA EMPLOYEES





                    Daniel R. Levinson

                    Inspector General 


                      February 2006

                     OEI-01-04-00400

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
the public. The findings and recommendations contained in the inspections generate
rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid Fraud
Control units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                         S U M M A R Y     



                  OBJECTIVES
                  1. 	 To describe the nature of outside activities for which Food and Drug
                       Administration (FDA) employees received approval between
                       2000 and 2003.

                  2. 	 To determine the extent to which FDA senior-level employees
                       provided required information on their outside activity request
                       forms and financial disclosure statements between 2000 and 2003.

                  3. 	 To assess FDA’s process for reviewing outside activity requests
                       between 2000 and 2003.


                  BACKGROUND
                  In general, employees of the Department of Health and Human Services
                  (HHS) are allowed to work privately with non-Federal entities on their
                  personal time through outside activities, which in some cases require
                  prior approval. Examples of outside activities include consulting,
                  teaching, speaking, and writing related to official duties. These
                  activities must not conflict with employees’ official duties. Employees
                  may be financially compensated for these activities. Outside activities
                  must be approved in accordance with regulations issued by the Office of
                  Government Ethics and supplemental rules issued by HHS.

                  The media and Congress have recently paid increased attention to the
                  oversight of outside activities within HHS. A December 2003
                  investigative report in The Los Angeles Times raised concerns regarding
                  the ethics program at the National Institutes of Health (NIH). In a
                  hearing conducted by the U.S. House of Representatives Committee on
                  Energy and Commerce that focused on the NIH, an FDA employee was
                  called to testify regarding his approved participation in an outside
                  activity with a significantly regulated organization. Certain FDA
                  employees are prohibited from working with significantly regulated
                  organizations, which are entities whose products are regulated by FDA.

                  In June 2004, FDA completed an internal review of all ongoing outside
                  activities to determine whether they complied with applicable laws and
                  regulations. To further ensure the integrity of the FDA review process
                  for outside activities, the Committee on Energy and Commerce
                  requested that the Office of Inspector General conduct an independent
                  review of FDA’s oversight of outside activities.



OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                i
E X E C U T I V E               S U          M M A R Y


                   The Ethics and Integrity Staff within FDA’s Office of the Commissioner,
                   Office of Management, implements and oversees the ethics program at
                   FDA, which includes providing oversight of outside activities and the
                   filing of financial disclosure statements that collect details on
                   employees’ assets, income, liabilities, and outside activities. FDA,
                   through the Ethics and Integrity Staff, takes a decentralized approach
                   to the review and approval of outside activities, delegating the review
                   and approval authority to the eight offices and centers within FDA,
                   hereafter referred to as centers.

                   When an employee seeks to participate in an outside activity, he or she
                   submits an outside activity request (the HHS-520 form) to his or her
                   supervisor. The supervisor makes a recommendation regarding
                   whether the activity should be approved and then forwards the form to
                   staff reviewers who provide additional review before forwarding it to the
                   final approving official, who determines whether the activity will be
                   approved.

                   We reviewed FDA’s database of all outside activity requests employees
                   submitted between 2000 and 2003. We also conducted a retrospective
                   review of all outside activity requests and supporting documentation
                   that senior-level employees submitted to FDA between January 1, 2000,
                   and December 31, 2003. We defined senior-level employees to be those
                   who, as of January 2004, were required to file Standard Form 278
                   public disclosure financial forms. We only reviewed requests that were
                   received by FDA; we did not assess whether employees conducted any
                   additional outside activities that were not reported in requests to FDA.

                   We also interviewed the staff in each center identified by FDA as the
                   most knowledgeable about the outside activity review process between
                   2000 and 2003. Finally, we reviewed written procedures related to
                   outside activities from the eight centers.


                   NATURE OF OUTSIDE ACTIVITIES
                   Eleven percent of all FDA employees received approval for a total of
                   2,592 outside activities between calendar years 2000 and 2003. Of
                   the 13,973 employees at FDA as of the end of fiscal year 2003,
                   1,571 employees received approval to participate in outside activities
                   between 2000 and 2003. Most employees participated in only one
                   activity. Eighty percent of the activities were conducted by employees
                   who file confidential financial disclosure forms. The most common types



 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                              ii
E X E C U T I V E               S U          M M A R Y


                   of outside activities involved teaching, lecturing, speechwriting, and
                   presenting.

                   Twenty-six percent of FDA senior-level employees received approval
                   for a total of 55 outside activities between calendar years 2000 and
                   2003. Of the 90 senior-level employees at FDA as of January 2004,
                   23 received approval to participate in outside activities between 2000
                   and 2003. Most senior-level employees participated in one or two
                   outside activities, and most of the activities were not compensated.
                   The most common types of outside activities for senior-level employees
                   involved serving on boards or writing and editing. Forty percent of
                   senior-level employees’ approved activities were performed during time
                   off from work.


                   VULNERABILITIES
                   Limited information inhibits FDA’s ability to effectively review
                   outside activity requests.
                   o 	 Complete information allows FDA reviewers to effectively assess
                       the appropriateness of proposed outside activities and to identify
                       potential conflicts of interest. Of the 55 approved outside
                       activities for senior-level employees, all but 3 were missing at
                       least 1 piece of information required on the HHS-520 form.
                   o 	 Although nearly all of the forms had deficiencies, most of these
                       omissions, considered independently, appeared to be minor.
                       However, the extent and frequency of these deficiencies in the
                       forms we reviewed raise systemic concerns about how FDA
                       collects and reviews information regarding employees’ outside
                       activities.
                   o 	 Even when required information was provided, it was often
                       limited. The information contained in the senior-level employees’
                       outside activity requests reviewed often contained vague or
                       minimal information, or lacked position descriptions or
                       documentation regarding the details of the outside activities.
                   o 	 Outside activities of senior-level employees were not disclosed as
                       required on annual financial disclosure forms 46 percent of the
                       time.
                   o 	 Limited information made it difficult for our reviewers to identify
                       potential conflicts of interest and to determine the
                       appropriateness of several activities of senior-level employees.

 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                  iii
E X E C U T I V E               S U          M M A R Y


                   Inadequacies in the review process limit FDA’s ability to effectively
                   review outside activity requests.
                   o 	 FDA policies and procedures do not fully address many key
                       aspects of the process.
                   o 	 Twenty-three of the fifty-five outside activity requests we
                       reviewed for senior-level employees were approved after the start
                       date. Seven activities were approved for longer than the 5-year
                       maximum period allowed at the time of our review. In three
                       instances, forms with multiple activities were approved.
                   o 	 We did not find written recusals for any of the senior-level
                       employees’ outside activities. However, we were not able to
                       determine whether written recusals were required. No center
                       routinely notified supervisors of approved outside activity
                       requests.
                   o 	 Staff in the eight centers do not receive specialized training
                       regarding the review of outside activity requests. At five of the
                       eight centers, the function of review of outside activities was a
                       collateral duty for staff responsible for determining the
                       completeness of information on the request forms.


                   RECOMMENDATIONS
                   We identified numerous problems regarding inadequate documentation
                   and insufficient processes and procedures that may hinder the ability of
                   reviewers to assess the appropriateness of the outside activities.
                   Considered together, these vulnerabilities indicate the importance of
                   continued vigilance to ensure the integrity of the review process. We
                   recognize that both HHS and FDA have several initiatives planned or
                   underway. The effectiveness of FDA’s new system for reviewing outside
                   activities will continue to be dependent on the quality of information
                   submitted and the adequacy of the review process. We make the
                   following recommendations to FDA on ways to improve and ensure the
                   integrity of its review process for outside activities:
                   Improve the quality and extent of information for outside activities.
                   o 	 Require all employees to submit additional details on the nature
                       of their proposed outside activities and their current official
                       duties.




 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                 iv
E X E C U T I V E               S U          M M A R Y


                   o 	 Ensure that all employees fill out their outside activity requests
                       completely.
                   o 	 Cross-check financial disclosure forms with those employees’
                       outside activities for the previous year.

                   Address the inadequacies in the review process for outside
                   activities.
                   o 	 Develop complete policies and procedures on outside activities for
                       all centers and employees.
                   o 	 Ensure that outside activity requests are approved before their
                       scheduled start dates.
                   o 	 Ensure that activities are approved for periods not exceeding the
                       maximum amount of time allowed by HHS or FDA.
                   o 	 Ensure that each outside activity receives its own separate
                       review.
                   o 	 Require recusals, if needed, to be made in writing and
                       disseminated to immediate supervisors and other key personnel
                       for all outside activities that are related to employees’ official
                       duties.
                   o 	 Ensure that supervisors are notified of all approvals and
                       disapprovals.
                   o 	 Enhance training related to outside activities.

                   o 	 Consider centralizing some or all aspects of the review process for
                       outside activities.


                   SUMMARY OF AGENCY COMMENTS
                   In its comments, FDA notes a variety of HHS and agency initiatives
                   that address the recommendations we made, including the revised
                   HHS-520 and new written policies and procedures.

                   One area with which FDA clearly takes issue is our discussion of
                   recusals. FDA points out that the HHS-520 form itself provides
                   information on recusal obligations to employees, and that by
                   recommending approval of an outside activity, a supervisor
                   acknowledges that an employee will recuse himself or herself
                   whenever appropriate. FDA also suggests that our recommendation
                   regarding recusals implies that when a written recusal is made, an


 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                   v
E X E C U T I V E               S U          M M A R Y


                   activity that otherwise would not be approved because of a conflict of
                   interest becomes approvable.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   While this review was underway, both HHS and FDA announced or
                   implemented initiatives aimed at strengthening the review process for
                   outside activities. We recognize that the revised supplemental
                   regulations and FDA’s forthcoming policies and procedures address
                   some of the recommendations we make in this report. We encourage
                   HHS and FDA to continue their efforts to improve the outside activities
                   review process.
                   In response to FDA’s concerns about recusals, we reiterate that written
                   recusals, when necessary, are protective of employees who are
                   participating in outside activities. The process of an employee writing a
                   separate recusal statement and the supervisor reviewing that statement
                   provides an opportunity for important, deliberate discussion and
                   planning that may not arise in the absence of a written statement.
                   Under no circumstances should FDA approve outside activities that
                   pose conflicts of interest, and in fact, we found no evidence that it has.




 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                  vi
Δ   T A B L E            O F            C O N T E N T S                                   




         EXECUTIVE SUMMARY ........................................                                                                 i



         INTRODUCTION ................................................ 1



         NATURE OF OUTSIDE ACTIVITIES .......................... 9



         V U L N E R A B I L I T I E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                     Limited information on outside activities . . . . . . . . . . . . . . . . . . . 12 


                     Inadequacies in the review process . . . . . . . . . . . . . . . . . . . . . . . . 16 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 



         S U M M A R Y O F A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . 26 



         O F F I C E O F I N S P E C T O R G E N E R A L R E S P O N S E . . . . . . . . . . . 26 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32 

                     A: Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32 


                     B: Nature of Outside Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . 38 


                     C: Errors Found on Outside Activity Requests. . . . . . . . . . . . . . . 50 


                     D: HHS and FDA Initiatives. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52 


                     E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60

Δ   I N T R O D U C T I O N                                 



                  OBJECTIVES
                  1. 	 To describe the nature of outside activities for which Food and Drug
                       Administration (FDA) employees received approval between
                       2000 and 2003.

                  2. 	 To determine the extent to which FDA senior-level employees
                       provided required information on their outside activity request
                       forms and financial disclosure statements between 2000 and 2003.

                  3. 	 To assess FDA’s process for reviewing outside activity requests
                       between 2000 and 2003.


                  BACKGROUND
                  Federal employees hold positions of public trust and are accountable for
                  the responsible use of public funds. As such, the public expects Federal
                  employees’ actions and decisions to demonstrate integrity and
                  objectivity. Therefore, pursuant to congressional mandate, the Office of
                  Government Ethics (OGE) has put into place an ethics program that
                  addresses a broad array of topics, including employees’ outside
                  activities. Each department in the executive branch is responsible for
                  implementing its ethics program.

                  In general, employees of the Department of Health and Human Services
                  (HHS) are allowed to work and interact privately with non-Federal
                  entities on their personal time through outside activities, which in some
                  cases require prior approval. Examples of outside activities include
                  consulting, teaching, speaking, and writing related to employees’ official
                  duties. These activities must not conflict with employees’ official duties,
                  and may or may not involve financial compensation.

                  Outside activities are not necessarily related to employees’ professions,
                  but some outside activities provide employees of FDA with opportunities
                  to work with industry, academia, hospitals, and nonprofit organizations
                  to help enhance knowledge and foster scientific discoveries. Some
                  outside activities can allow FDA employees to build and maintain their
                  professional expertise. Outside activities can also provide opportunities
                  for FDA employees to maintain licensures or certifications.

                  Certain outside activities may create actual or apparent conflicts of
                  interest for employees. Pursuant to 18 U.S.C. § 208(a), an actual
                  conflict of interest arises when an employee personally and
                  substantially participates, in an official capacity, in a particular matter

OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                 1
I N T R O D        U C T      I O N


                    in which he or she has a personal or imputed financial interest, if the
                    matter will have a “direct and predictable effect” on that interest.
                    Additionally, pursuant to 5 CFR § 2635.502, the appearance of a loss of
                    impartiality arises when an employee participates, in an official
                    capacity, in a matter in which he has certain defined associations or
                    interests that would “cause a reasonable person . . . to question his
                    impartiality in the matter.”
                    Recent Concerns Regarding Outside Activities Within HHS
                    The media and Congress have recently paid increased attention to the
                    oversight of outside activities within HHS. A December 2003
                    investigative report in The Los Angeles Times raised concerns regarding
                    the ethics program at the National Institutes of Health (NIH).1 The Los
                    Angeles Times article alleged that the approval of consulting
                    arrangements for several senior-level scientists at NIH had created
                    serious conflicts of interest that may have biased agency decisions.
                    These allegations resulted in a number of internal and external
                    inquiries, including several congressional hearings, into potential
                    conflicts of interest arising from outside activities at NIH.

                    In a hearing conducted by the U.S. House of Representatives Committee
                    on Energy and Commerce that focused on NIH, an FDA employee was
                    called to testify regarding his approved participation in an outside
                    activity with a significantly regulated organization. Certain FDA
                    employees are prohibited from working with significantly regulated
                    organizations, which are organizations whose products are regulated by
                    FDA (see pages 4–5 for more information). FDA indicated, in a
                    prepared statement submitted to the committee, that at the time of
                    approval the organization was not significantly regulated, but that the
                    organization’s status had changed during the course of the activity.
                    After learning of this case, FDA conducted an internal review of all
                    ongoing outside activities to determine whether they complied with
                    applicable laws and regulations. To further ensure the integrity of the
                    FDA review process for outside activities, the Committee on Energy and
                    Commerce requested that the Office of Inspector General (OIG) conduct
                    an independent review of FDA’s oversight of outside activities.
                    Requirements for Outside Activities at FDA
                    Office of Government Ethics. OGE was established by the Ethics in
                    Government Act of 1978, 5 U.S.C. App. OGE oversees ethics programs
                    at all executive branch agencies. In October 1992, OGE promulgated
                    Governmentwide Standards of Ethical Conduct for Employees of the


 OEI-01-04-00400    OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                              2
I N T R O D        U C T      I O N


                    Executive Branch, which became effective on February 3, 1993, and
                    include Subpart H on outside activities.2 OGE regulations require
                    employees to comply with 18 U.S.C. § 209, which bars employees from
                    accepting outside compensation for work conducted in an official
                    capacity.3 OGE regulations also prohibit employees from engaging in
                    outside activities, both compensated and uncompensated, that would
                    conflict with those employees’ official duties to such a degree that they
                    would have to be disqualified from performing essential parts of their
                    jobs.4 Further, employees are required to endeavor to avoid actions that
                    would create any appearance of violating the standards of ethical
                    conduct.5
                    Although OGE promulgates the rules that provide a general framework
                    for ethical conduct, it delegates to individual departments the authority
                    to permit particular kinds of outside activities and/or to require prior
                    approval for outside activities. However, OGE does conduct routine
                    audits of agencies’ ethics programs to ensure compliance with applicable
                    regulations. OGE conducted such a review of FDA’s ethics program in
                    2004.

                    OGE also oversees Government financial disclosure requirements.
                    Certain executive branch employees, including some FDA employees,
                    must disclose their compensated outside activities on annual financial
                    disclosure forms. Financial disclosure may be public or confidential,
                    depending on an employee’s pay schedule and grade.

                    Employees for whom the minimum base pay in their pay band is equal
                    to or greater than 120 percent of the minimum rate of base pay for the
                    GS-15, and certain other designated officials such as Presidential
                    appointees and members of the uniformed services above a certain pay
                    grade, must annually file the public financial disclosure form, the
                    Standard Form (SF)-278.6 An agency may also propose that OGE
                    require filing of the SF-278 for additional positions, through a process
                    known as equal classification. An agency would propose equal
                    classification if it could demonstrate that the responsibilities and
                    influence of certain positions were equivalent to those of employees in
                    other agencies or components who, by virtue of their salary structures,
                    were required to file the SF-278. When equal classification is granted,
                    employees in those positions must file the SF-278.

                    The SF-278 form captures all outside sources of assets worth at least
                    $1,000, as well as outside income and liabilities, along with the financial
                    value for each item. Also, the SF-278 captures all compensated outside

 OEI-01-04-00400    OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                3
I N T R O D        U C T      I O N


                    activities for which the income is greater than $200 and certain
                    compensated and uncompensated positions.

                    Other employees who do not file the SF-278 but who hold positions of
                    significant decisionmaking authority, as determined by FDA, are
                    required to annually file the confidential financial disclosure form, the
                    OGE-450. Recently, FDA expanded the number of employees who are
                    required to annually file the OGE-450.7 This form captures certain
                    assets worth at least $1,000; income, liabilities, and outside activities
                    for which compensation exceeds $200; and certain compensated and
                    uncompensated positions. However, the OGE-450 form does not require
                    employees to disclose the precise financial values of these items.

                    In fiscal year 2003, 54 percent of FDA employees were required to file
                    one of these financial disclosure forms. Employees who do not meet the
                    criteria for either the SF-278 or the OGE-450 do not file any annual
                    financial disclosure forms.
                    Department of Health and Human Services. Agencies may impose, with
                    OGE concurrence, additional limitations on outside activities. In 1996,
                    HHS promulgated the HHS Supplemental Standards of Ethical Conduct
                    for employees.8 The HHS supplemental regulations prohibit HHS
                    employees from engaging in any compensated employment related to
                    HHS-funded activities; they also prohibit employees from providing
                    consultative or professional services for compensation in preparing
                    grant applications, contract proposals, and certain other documents for
                    submission to HHS. In addition, the regulations require employees to
                    request and receive written approval for certain outside activities prior
                    to engaging in those outside activities. The types of activities that
                    trigger the prior approval requirement include, but are not limited to:
                    (1) providing consultative or professional services; (2) teaching,
                    speaking, writing, or editing that relates to official duties or results
                    from contact with certain prohibited sources; and (3) serving on certain
                    boards or advisory bodies.9
                    The HHS supplemental regulations provide additional restrictions on
                    relationships between FDA employees and significantly regulated
                    organizations.10 The regulations define significantly regulated
                    organizations as “organization[s] for which the sales of products
                    regulated by the Food and Drug Administration (FDA) constitute ten
                    percent or more of annual gross sales in the organization’s previous
                    fiscal year; where an organization does not have a record of sales of
                    FDA-regulated products, it will be deemed to be significantly regulated

 OEI-01-04-00400    OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                               4
I N T R O D        U C T      I O N


                    if its operations are solely in fields regulated by FDA.”11 With limited
                    exceptions, FDA employees and their spouses and children are
                    prohibited from having financial interests in significantly regulated
                    organizations. In addition, FDA employees who are required to file
                    annual financial disclosure forms are also generally prohibited from
                    participating in outside activities with significantly regulated
                    organizations. Finally, all FDA employees are required to obtain prior
                    approval before engaging in any outside employment or self-employed
                    business activity.12
                    In February 2005, HHS issued, with OGE concurrence, an interim final
                    rule that revised portions of the HHS supplemental regulations.13
                    Previously, the HHS supplemental regulations stipulated that outside
                    activities shall be approved unless they violated a statutory or
                    regulatory requirement. Under the interim final rule, however, the
                    standard for approval is higher. Previously, the regulations stated that,
                    “Approval shall be granted unless it is determined that the outside
                    employment or other outside activity is expected to involve conduct
                    prohibited by statute or Federal regulation . . . .”14 However, the
                    interim final rule established a higher standard for approval: “Approval
                    shall be granted only upon a determination that the outside
                    employment or other outside activity is not expected to involve conduct
                    prohibited by statute or Federal regulation . . . .”15 Our review was
                    conducted prior to the interim final rule; therefore, our findings are
                    based on the previous version of the supplemental regulations.
                    Outside Activity Approval Process at FDA
                    The Ethics and Integrity Staff within FDA’s Office of the Commissioner,
                    Office of Management, implements and oversees the ethics program at
                    FDA, which includes providing oversight of outside activities and the
                    filing of financial disclosure statements. During the period of our
                    review, FDA’s Deputy Ethics Counselor delegated the authority to
                    approve outside activity request forms to the Ethics and Integrity Staff.
                    The Ethics and Integrity Staff took a decentralized approach to the
                    review of outside activities, delegating the review authority to the eight
                    offices and centers within FDA, hereafter referred to as centers.16
                    Outside activity requests. Generally, the review process for outside
                    activity requests begins when an employee completes and submits a
                    Request for Approval of Outside Activity form, the HHS-520. All full-
                    time and part-time HHS employees who wish to engage in certain
                    outside activities must complete this document. The HHS-520 collects


 OEI-01-04-00400    OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                               5
I N T R O D        U C T      I O N


                    information on an employee’s position, the nature of the proposed
                    outside activity, the period of time over which the outside activity will
                    be performed, and the method of compensation; it thereby helps
                    reviewers determine whether a proposed outside activity may pose a
                    real or apparent conflict of interest. As of January 2004, the amount of
                    compensation must also be provided, pursuant to a HHS-wide directive
                    from the Designated Agency Ethics Official.17 This official has authority
                    delegated from the Secretary of HHS to oversee the HHS ethics
                    program. Further, in April 2005, HHS released a new version of the
                    HHS-520, which requires employees to provide additional information
                    regarding their requests for outside activities. Our review covered
                    requests submitted prior to these changes.

                    The review process for outside activities has also changed since the
                    period of our review, calendar years (CY) 2000 through 2003. In this
                    report, we capture the review process that was in place during the
                    period of our review. Although this process varied across the eight
                    centers, generally an employee submitted the HHS-520 form to his or
                    her supervisor, who performed an initial review and recommended
                    whether the request should be approved. Staff reviewers in the centers,
                    typically program or management analysts, then saw and reviewed the
                    request before forwarding it to the final approving official, who made
                    the final determination regarding approval.18 The final approving
                    official was typically the center director but, during the period of our
                    review, final approving officials often delegated the final approving
                    authority to members of their staffs, often the staff reviewers in the
                    centers. However, as of June 2004, FDA required center directors to
                    provide the final review of all requests, and no longer permitted them to
                    delegate this authority.19 Throughout this report, we use the general
                    term reviewers to refer to all of the individuals who have roles in the
                    outside activity review process, which includes supervisors, staff
                    reviewers, and final approving officials.

                    As stated previously, regulations generally prevent FDA employees who
                    are required to file annual financial disclosure reports from engaging in
                    outside activities that involve significantly regulated organizations.
                    The list of these organizations, referred to as the yellow book, is updated
                    annually by the Ethics and Integrity Staff.

                    After requests have been approved or disapproved, centers forward
                    HHS-520 forms to FDA’s Ethics and Integrity Staff, who maintain a
                    database of all outside activity requests.


 OEI-01-04-00400    OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                6
I N T R O D        U C T      I O N 




                    METHODOLOGY
                    Our review is based on four data sources: (1) FDA’s database of outside
                    activities, (2) a file review of outside activity requests and related
                    documentation, (3) interviews, and (4) a procedure review. (For a
                    complete description of our methodology, see Appendix A.)

                    We analyzed FDA’s database of all outside activity requests submitted
                    between CYs 2000 and 2003 to make summary statements about the
                    number and nature of outside activities at FDA as a whole.

                    We chose the timeframe between CYs 2000 and 2003 because it allowed
                    us to examine trends by year. We did not include CY 2004 because
                    complete data were not available and some outside activities policies
                    and procedures changed during CY 2004.

                    For our file review, we conducted a retrospective review of all outside
                    activity requests that senior-level employees submitted for approval
                    between CYs 2000 and 2003. We defined senior-level employees to be
                    those who were required to file SF-278 public disclosure forms as of
                    January 2004. FDA provided us with a list of 90 employees who met
                    that criterion. This group of senior-level employees included, but was
                    not limited to, center and office directors and deputy directors.

                    Our file review included three methodologies: (1) a descriptive review,
                    (2) a completeness review, and (3) a compliance review. For the
                    descriptive review, we tallied the number and nature of the outside
                    activity requests overall and conducted trend analyses of the approved
                    activities. One limitation of this review is that it may have been subject
                    to underreporting, as we did not assess whether employees conducted
                    any additional outside activities between CYs 2000 and 2003 that were
                    not reported to FDA in outside activity requests. For the completeness
                    review, we calculated the extent to which the required documentation
                    was filled out completely and correctly.

                    For the compliance review, two OIG analysts, and when necessary a
                    third, independently assessed each approved outside activity using a set
                    protocol and documented whether the activity appeared to be allowable
                    under existing requirements. A limitation of this review is that we
                    made our assessments based solely on the documentation provided by
                    FDA and did not follow up with employees or reviewers for further
                    details on the outside activities.

                    We also interviewed the employees in each center who were identified
                    by FDA as being those most knowledgeable about the review process in

 OEI-01-04-00400    OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                7
I N T R O D        U C T      I O N


                    the centers between CYs 2000 and 2003. These employees are typically
                    program and management analysts in the centers (we refer to them
                    throughout this report as staff reviewers). We used a structured
                    questionnaire to conduct the interviews. Questions addressed topics
                    such as centers’ procedures for reviewing outside activity requests and
                    challenges staff reviewers face in reviewing outside activity requests.

                    Finally, we requested operating procedures related to outside activities
                    from all centers. We assessed and compared these documents.

                    We conducted this inspection in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-01-04-00400    OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                               8
Δ   N A T U R E               O F             O U T S I D E    A C T I V I T I E S 


                  In this section we provide a summary of the number and types of
                  outside activities in which FDA employees participated between
                  CYs 2000 and 2003. We start with a summary of all employees, then
                  address senior-level employees. For more information on the nature of
                  FDA employees’ outside activities, see Appendix B.

Eleven percent of all FDA employees received
 approval for a total of 2,592 outside activities
                   between CYs 2000 and 2003

                  FDA approved all but 14 outside activity requests
                  o 	 Of the 13,973 employees at FDA as of the end of fiscal year 2003,
                      1,576 employees requested approval for 2,606 outside activities
                      between CYs 2000 and 2003. FDA approved 2,592 outside activity
                      requests for 1,571 employees. It is not surprising that most
                      activities were approved; departmental supplemental regulations
                      at the time the requests were submitted stipulated that outside
                      activity requests are to be approved unless they violated statute
                      or regulation.20
                  Most employees received approval for one outside activity, but a few
                  received approval for more than five
                  o 	 Of the 1,571 employees who received approval for outside
                      activities between CYs 2000 and 2003, 68 percent received
                      approval for just 1 activity, and another 20 percent received
                      approval for 2 activities.
                  o 	 Three percent of employees participated in more than five
                      activities between CYs 2000 and 2003. The maximum was
                      38 approved outside activities for 1 employee.
                  Employees who filed the confidential financial disclosure statement
                  accounted for 80 percent of the approved outside activities
                  o 	 Employees who did not file financial disclosure statements
                      accounted for 18 percent of the approved outside activities, and
                      employees who filed public financial disclosure statements
                      accounted for the remaining 2 percent.
                  Employees at the two largest centers accounted for 60 percent of the
                  approved outside activities
                  o 	 Employees at the Center for Drug Evaluation and Research
                      received approval for 812 outside activities, and employees at the



OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES	                                 9
N A T U R E          O F         O U T S I D                  E   A C T I V I T I E S


                        Office of Regulatory Affairs received approval for 750 approved
                        outside activities, between CYs 2000 and 2003.
                    The most common types of approved outside activities involved teaching,
                    lecturing, speechwriting, and presenting
                    o 	 FDA characterized 19 percent of approved outside activities as
                        involving teaching, lecturing, speechwriting, and presenting.
                        Seventeen percent involved activities characterized by FDA as
                        “miscellaneous” activities, including self-employment. Fourteen
                        percent involved providing consultative or professional services.21

         Twenty-six percent of FDA senior-level
      employees received approval for a total of
55 outside activities between CYs 2000 and 2003

                    FDA approved all 55 outside activity requests made by senior-level
                    employees
                    o 	 Of the 90 senior-level employees at FDA as of January 2004,
                        23 submitted 55 outside activity requests. FDA approved all of
                        them.
                    Most of the 23 senior-level employees with approved outside activities
                    received approval for 1 or 2 outside activities
                    o 	 Of the 23 senior-level employees who received approval for outside
                        activities, 14 received approval for only 1 or 2 outside activities
                        between CYs 2000 and 2003. The maximum was five approved
                        outside activities for one employee.
                    Senior-level employees at three centers accounted for 64 percent of the
                    approved outside activities for senior-level employees
                    o 	 Senior-level employees at the Center for Food Safety and Applied
                        Nutrition received approval for 15 outside activities; senior-level
                        employees at the Center for Drug Evaluation and Research and
                        the Center for Veterinary Medicine each received approval for
                        10 outside activities.
                    The most common types of approved outside activities for senior-level
                    employees involved serving on a board or writing and editing
                    o 	 Thirty-six percent of the approved outside activities for senior-
                        level employees involved serving on a board. Another 20 percent
                        involved writing and editing.




  OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                               10
N A T U R E         O F         O U T S I D                  E   A C T I V I T I E S


                   The most common venues for senior-level employees’ outside activities
                   were journals and other publications, professional societies, and
                   universities
                   o 	 Journals and other publications, professional societies, and
                       universities each accounted for 20 percent of the approved outside
                       activities for senior-level employees.
                   o 	 None of the activities involved the biotechnology or
                       pharmaceutical industries or any significantly regulated
                       organizations.
                   Fifty-eight percent of approved outside activities for senior-level employees
                   involved no compensation
                   o 	 For the 20 activities that did involve compensation, the most
                       common form was reimbursement for travel and expenses.
                   Forty percent of approved outside activities for senior-level employees
                   involved time off, and 29 percent of these activities involved a week or more
                   of time off
                   o 	 Senior-level employees indicated that they would take time off to
                        perform 22 outside activities. For those 22 activities, employees
                        indicated that they would take between 1 and 36 business days
                        off. The median amount of time off was 7 business days per
                        activity.




 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                11
V U L N E R A B I L I T I E S
Δ    V U L N E R A B I L I T I E S

    Limited information inhibits FDA’s ability to 

     effectively review outside activity requests 


                   Of the 55 approved outside activities for senior-level employees, all but
                   3 were missing at least 1 piece of information required on the HHS-520 form
                   Although nearly all of the forms had deficiencies, most of these
                   omissions, considered independently, appeared to be minor. However,
                   the extent and frequency of these deficiencies raise systemic concerns
                   about how FDA collects and reviews information regarding employee
                   outside activities. The areas highlighted in this section represent some
                   of the more serious omissions or errors. Appendix C contains a complete
                   listing of deficiencies on the outside activity requests.

                   When the information provided on outside activity request forms is
                   incomplete, it becomes more difficult for supervisors, staff reviewers,
                   and final approving officials to identify and address potential concerns.
                   The information contained on the HHS-520 is, at FDA, the only
                   information that employees are required to provide when they request
                   approval for outside activities. Complete information allows FDA
                   reviewers to consider potential conflicts of interest and make informed
                   recommendations with regard to approval.

                   Several items on the HHS-520 solicit information that is used to provide
                   assurance that potential conflicts of interest, prohibited by regulations,
                   are not present in proposed activities. Forms were often missing
                   responses to these items. Seven requests were missing statements
                   about whether compensation would be derived from HHS grants or
                   contracts. Five requests were missing statements about whether would-
                   be associates would be seeking grants from Federal agencies. One
                   request was missing a statement that the outside activity did not
                   conflict with official duties.

                   Though all centers use the same HHS-520 form, internal processing
                   policies and procedures vary from center to center. Three of eight
                   centers explicitly state in their procedures that forms submitted for
                   approval should always be complete, and as we have noted, complete
                   information is crucial for making informed decisions on outside activity
                   requests. FDA staff reviewers at six of eight centers described forms
                   not being filled out completely or adequately as a moderate or minor
                   challenge.22
                   We also found a number of examples of supervisors failing to provide
                   required information on the forms. Four requests were missing the


 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                               12
V U L N E R A B I L I T I E S


                   supervisors’ signatures. Seven requests were missing supervisors’
                   recommendations regarding approval. The supervisor is responsible for
                   verifying that proposed outside activities do not overlap with employees’
                   official duties. The result of this substantive review is a
                   recommendation to the final approving official on whether requests
                   should be approved.

                   Nine requests were missing the signature of the final approving official,
                   and 14 were missing the final approving official’s decision regarding
                   approval. All five centers that have written procedures on outside
                   activities detail the appropriate signature and approval processes for
                   outside activity requests in those procedures.

                   Nine requests were missing the second page of the HHS-520. This page
                   contains space for reviewers to comment on the requests. This page also
                   generally contains a signed statement that the employee received the
                   “Notice to Applicants for Prior Approval of Outside Activities” and the
                   “Excerpts from the Standards of Ethical Conduct for Employees of the
                   Executive Branch and the Department of Health and Human Services
                   Supplemental Agency Ethics Regulations,” which summarize the
                   responsibilities of employees who are engaged in outside activities.

                   When request forms are incomplete, the staff reviewers must follow up
                   to obtain complete information on proposed outside activities. At two of
                   the eight centers, the FDA staff reviewers we interviewed indicated that
                   they always or often follow up with employees for additional
                   information during the review process; staff reviewers at another two
                   centers indicated that they sometimes follow up with employees for
                   more information.
                   Even when required information was provided, it was often limited
                   In our review of senior-level employees’ outside activity requests, we
                   often encountered information that was vague or otherwise limited.
                   Based on the limited nature of information provided on the HHS-520
                   forms, it was often not possible for our reviewers to determine what
                   tasks were involved in the proposed outside activities or how those tasks
                   related to employees’ official duties; therefore, it was difficult to
                   determine whether the activities were appropriately approved for these
                   senior-level employees. At least 1 of our reviewers needed more
                   information on employees’ job duties for 53 of the cases reviewed, and at
                   least 1 reviewer needed more information on the nature of employees’
                   proposed outside activities for 50 of the cases reviewed. For all
                   requests, at least one reviewer needed more information on the

 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                              13
V U L N E R A B I L I T I E S


                   difference between employees’ official duties and the proposed outside
                   activities. For 49 of the cases reviewed, at least 1 reviewer wanted
                   additional information on the outside organizations with which the
                   employees would be working.

                   Beyond the HHS-520 form, FDA does not require additional
                   documentation that could be useful for the supervisors, staff reviewers,
                   and final approving officials. Only eight of the senior-level employees’
                   requests had additional information attached. Of these eight, four
                   requests included letters of invitation, three included correspondence
                   related to the outside engagements, and one included additional
                   information on the outside organization. No position descriptions or job
                   billets were attached to any requests. Information contained in these
                   types of attached documents can provide important context to FDA
                   reviewers.

                   To address concerns about inadequately detailed requests, the HHS
                   Designated Agency Ethics Official recently reminded officials
                   throughout HHS of the importance of performing due diligence when
                   reviewing ethics forms. In a memo, this official stated that:
                   “Performing ‘due diligence’ that is appropriate to the circumstances
                   should be a standard operating procedure. Conduct internet searches,
                   make phone calls to the entities involved, talk to the employees, elicit
                   responses from them . . . .”23
                   Outside activities of senior-level employees were not disclosed as required
                   on annual financial disclosure forms 46 percent of the time
                   Regulations require employees who file annual financial disclosure
                   reports to disclose any outside activities in each year they are engaged
                   in the outside activities.24
                   However, supervisors, staff reviewers, and final approving officials in
                   the centers do not oversee the employees’ annual financial disclosure
                   statements and therefore cannot reconcile outside activity requests with
                   financial disclosure forms. Recently, FDA announced that it will be
                   reconciling employees’ outside activity requests and financial disclosure
                   statements annually.25
                   Limited information made it difficult for our reviewers to determine the
                   appropriateness of several activities of senior-level employees
                   Determining whether an outside activity comported with pertinent
                   ethics regulations required a judgment based on limited information.
                   To increase the consistency of this judgment, two OIG reviewers
                   independently reviewed each outside activity request to assess its

 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                14
V U L N E R A B I L I T I E S


                   appropriateness. A third and final reviewer resolved cases in which the
                   two initial reviewers disagreed.

                   Our review included all available documentation associated with these
                   activities for senior-level employees, as provided by FDA. However, it is
                   important to point out that these documents do not necessarily include
                   all facts known to or considered by the FDA reviewers at the time of
                   their reviews. FDA staff reviewers indicated that they sometimes
                   conduct additional research to get information about proposed activities.
                   Reviewers may also have additional information and knowledge
                   regarding particular center employees’ official duties.
                   In no instance was the documentation we reviewed adequate for us to
                   make a definitive determination regarding whether an activity was
                   appropriate. As demonstrated in this section, the information contained
                   in the documentation for outside activity requests was often minimal,
                   which made it difficult to determine whether activities were
                   appropriate. Therefore, based upon the information contained on the
                   forms alone, we could not state with certainty that any activity was or
                   was not allowable. Instead, we made one of three determinations for
                   each activity: (1) appears to be allowable, (2) appears not to be
                   allowable, or (3) cannot determine.

                   For cases in which the documentation did not suggest any violation of
                   the regulations, our reviewers identified activities as “appears to be
                   allowable,” even if more information would be necessary to definitively
                   determine that they were in fact allowable. Our reviewers would only
                   have identified activities as “appears not to be allowable” if the
                   documentation suggested any violations of the regulations. Finally, our
                   reviewers identified activities as “cannot be determined” when the
                   information available was so incomplete that they were unable to make
                   a determination, or when the information available raised concerns that
                   the activity may have violated the regulations.

                   None of the outside activity requests we reviewed involved significantly
                   regulated organizations. Ultimately, our reviewers determined that
                   44 activities appeared to be allowable and none appeared not to be
                   allowable; however, our reviewers could not determine the
                   appropriateness of the remaining 11 activities because the information
                   provided was so incomplete or the forms were filled out incorrectly.
                   Inadequate documentation for outside activities can, intentionally or
                   unintentionally, obscure potential violations. If reviewers conduct
                   additional research on requests, they may uncover and resolve those

 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                             15
      V U L N E R A B I L I T I E S


                          potential problems before violations occur, but this may not happen in
                          every case. We forwarded the 11 activities for which we could not make
                          determinations on appropriateness to FDA for further review. FDA
                          determined through additional review that all of these 11 activities
                          were allowable.

Inadequacies in the review process limit FDA’s ability          In this section, we describe several
       to effectively review outside activity requests          inadequacies in the review process
                                                                for outside activities. In many
                          cases, neither FDA policies nor center procedures address these issues.
                          Approvals after the start date
                          FDA approved 23 of the 55 outside activity requests we reviewed for
                          senior-level employees after the start dates listed on those requests.
                          HHS regulations mandate that outside activities must be approved in
                          advance.26
                          In our review, many approvals after the start dates were due to late
                          submissions. For 12 of the 23 late approvals, employees submitted the
                          outside activity requests after the activities had already begun. Late
                          requests were filed anywhere between 4 and 279 calendar days after
                          those activities were supposed to begin, with a median of 65 calendar
                          days after the start dates provided on the HHS-520 forms. Additionally,
                          late approvals may occur if any of the reviewers need to follow up with
                          employees for additional information on their requests.27
                          Between 2000 and 2003, none of the eight centers provided deadlines for
                          the submission of outside activity requests in their written procedures.
                          However, one center recently changed its procedures to specify that
                          requests should be submitted at least 3 weeks in advance of the start
                          dates to allow sufficient time for review.
                          Approvals exceeding the maximum time period allowed by FDA
                          Between CYs 2000 and 2003, FDA allowed employees to request
                          approval for activities for periods up to 5 years.28 We found seven
                          instances of activities of senior-level employees being approved for
                          periods exceeding 5 years. Not only does this violate FDA policy, but it
                          also makes it difficult to ensure that activities continue to be
                          appropriate as employees may change official job duties over time.
                          Recently, both HHS and FDA have limited the timeframe for approvals
                          of outside activities to 1-year periods.29




        OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                              16
V U L N E R A B I L I T I E S


                   Approvals of multiple activities on one request form
                   In three instances, outside activity requests of senior-level employees
                   were approved despite the fact that multiple outside entities were listed
                   on the forms. In one case, an employee requested permission to review
                   articles for multiple publications. In another case, an employee
                   requested permission to work with multiple clinical and research
                   centers. In a third case, an employee requested permission to work with
                   five separate organizations, including a foreign government entity.
                   Neither FDA policies nor center procedures address the issue of
                   multiple activities on a single request. It is important that a unique
                   HHS-520 form be submitted for each distinct outside activity, because
                   this form is designed to provide details on only one particular activity.
                   Activities with different entities may pose different types of concerns,
                   and so requests to engage in separate outside activities should be
                   submitted and reviewed independently.
                   Inadequate use of written recusals
                   We did not find written recusals present for any of the senior-level
                   employees’ outside activities that we reviewed. However, we were not
                   able to determine whether written recusals were required. Staff
                   reviewers we interviewed indicated that they had limited experience
                   with recusals, and it is uncertain to what extent recusals are addressed
                   at the time activities are approved. Also, FDA’s expectations with
                   regard to written recusals are unclear; neither FDA policies nor center
                   procedures mention the use of written or unwritten recusals.

                   Pursuant to the prohibition in the Federal conflict of interest statute,
                   18 U.S.C. 208, and OGE regulations, all employees who participate in
                   outside activities are obligated either to recuse themselves—in other
                   words disqualify themselves—from any official duty matters that may
                   create an actual conflict of interest or an appearance of loss of
                   impartiality in the performance of official duties, or to request a waiver
                   or authorization.30 To make employees aware of this obligation, all
                   employees participating in outside activities are supposed to receive two
                   forms, the “Notice to Applicants for Prior Approval of Outside Activities”
                   and “Excerpts from the Standards of Ethical Conduct,” which mention
                   the requirement that employees recuse themselves, but do not include
                   further details. OGE guidance suggests that written recusals can help
                   to prevent conflicts of interest from arising.31




 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                              17
V U L N E R A B I L I T I E S


                   Inadequate notification of supervisors
                   Staff reviewers at none of the eight centers reported that they routinely
                   notify employees’ supervisors of final decisions on outside activity
                   requests, although staff reviewers at some centers did indicate that
                   employees’ administrative staffs may be notified of final decisions.
                   Therefore, even though supervisors review and sign off on outside
                   activity requests before sending them for final approval, they are
                   frequently not made aware of final decisions. When supervisors are
                   unaware of ongoing outside activities, they may not be able to monitor
                   employees’ assignments to avoid conflicts of interest. Neither FDA
                   policies nor center procedures address notification of supervisors.
                   Inadequate followup on ongoing outside activities
                   Staff reviewers at only two centers reported that they follow up on
                   ongoing outside activities, and they reported that they only follow up to
                   determine whether activities are continuing or whether they will be
                   renewed at the end of their approval periods. Staff reviewers at none of
                   the centers reported that they follow up to determine whether the
                   nature or time commitment of approved activities are in line with the
                   specifications of the requests, whether employees’ official job duties
                   have changed, or whether ethics rules are being observed.

                   Neither FDA policies nor center procedures address the frequency or
                   amount of followup for ongoing outside activities; however, in 2004,
                   FDA announced that it will only approve activities for 1-year periods.32
                   In addition, the interim final rule limits approvals to 1-year periods,
                   and further calls for employees who participate in outside activities to
                   submit reports on their outside activities annually.33 This shortened
                   period of approval will result in followup for all outside activities at
                   least once per year.
                   Inadequate training
                   Staff reviewers at only one of the eight centers reported providing
                   training on outside activities to its employees during the past several
                   years. There is currently no requirement for annual ethics training for
                   all employees at FDA, although new FDA employees receive ethics
                   training, and annual ethics training is required for employees who file
                   financial disclosure reports.34 Still, staff reviewers at only one center
                   identified inadequate training of employees as a moderate challenge,
                   staff reviewers at four centers identified it as a minor challenge, and
                   staff reviewers at the remaining three centers indicated that it was not
                   a challenge.


 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                               18
V U L N E R A B I L I T I E S


                   Neither FDA nor any of the centers have provided training specifically
                   geared toward supervisors, and none of the staff reviewers we
                   interviewed indicated that this posed a major or moderate challenge,
                   although staff reviewers at four centers identified inadequate
                   supervisor training as a minor challenge. Yet, it is crucial to have well-
                   trained supervisors who understand their roles in the outside activity
                   review process and vet outside activity requests adequately.

                   Finally, neither FDA nor any of the centers have provided training
                   specifically geared toward reviewers. It is important that these
                   reviewers are trained to effectively review outside activity requests.
                   FDA staff reviewers we spoke with at one center indicated that
                   insufficient training of reviewers posed a moderate challenge, and staff
                   reviewers at two other centers indicated that this was a minor
                   challenge. It is crucial that reviewers are trained regarding how to
                   properly screen requests for potential conflicts of interest.
                   Varying levels of staffing
                   At five of the eight centers, the review of outside activities was a
                   collateral duty for staff reviewers. This includes the two centers with
                   the most outside activity requests between CYs 2000 and 2003. The
                   other centers had at least one full-time person dedicated to outside
                   activities and, in some cases, other ethics matters. In centers where
                   outside activity review is a collateral duty, it may be difficult for staff
                   reviewers to develop expertise in the review of requests. Perhaps this is
                   one reason that staff reviewers did not recognize as challenges many of
                   the inadequacies we have identified. Staff reviewers at one center
                   identified inadequate staffing as a moderate challenge, and staff
                   reviewers at three centers indicated that it was a minor challenge.
                   Staff reviewers at the remaining four centers indicated that inadequate
                   staffing was not a challenge.




 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                19
Δ   R E C O M M E N D A T I O N S                             


                  Although we did not identify any outside activities that appeared to
                  violate applicable statutes or regulations, we did identify numerous
                  problems regarding inadequate documentation and insufficient
                  processes and procedures that may hinder the ability of reviewers to
                  assess the appropriateness of the outside activities. Considered
                  together, these vulnerabilities indicate the importance of continued
                  vigilance in ensuring the integrity of FDA’s review process and in
                  preventing employees from participating in inappropriate outside
                  activities in the future.

                  We recognize that both HHS and FDA have several initiatives planned
                  or underway that aim to improve the review process for outside
                  activities. (See Appendix D for a list of these initiatives.) Most notably,
                  in February 2005, HHS issued an interim final rule to revise the
                  supplemental regulations; this interim final rule addresses some of the
                  vulnerabilities identified in this report. Over the past year, FDA also
                  issued to employees new guidance documents on outside activities
                  processes. We encourage HHS and FDA to continue their efforts to
                  improve the outside activities review process.

                  The effectiveness of FDA’s new system for reviewing outside activities
                  will continue to depend on the quality of information submitted and the
                  adequacy of the review process. Below, we make recommendations to
                  FDA on ways to improve information and ensure the integrity of its
                  review process for outside activities.
                  Improve the Quality and Extent of Information for Outside Activities
                  Require all employees to submit additional details on the nature of their
                  proposed outside activities and their current official duties. Having sufficient
                  information on the nature of an activity is crucial to determining
                  whether the activity should be approved. Equally important is having
                  sufficient information on the nature of an employee’s current job duties.
                  Together, this information allows reviewers to identify any overlap
                  between a proposed outside activity and an employee’s official duties.
                  HHS has revised the HHS-520 form to capture additional information
                  on outside activities. However, FDA must ensure that employees
                  provide adequate, substantive information.

                  We recommend that FDA require employees to submit the following
                  with all outside activity requests:
                  o 	 Statements, written by employees, that describe precisely and
                      accurately in substantive ways the work that will be performed
                      for outside entities.

OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                     20
R 	E C O      M M E N D A T                  I O N     S


                   o 	 Detailed descriptions of employees’ current job-related activities,
                       in addition to copies of their position descriptions. The interim
                       final rule requires employees to submit additional information
                       about their official duties and any relationships between their
                       official duties and their outside activities.35
                   o 	 Written letters of invitation and agendas, whenever they are
                       available. These items can provide important information on
                       what is involved in proposed outside activities.
                   o 	 All consulting contracts and other agreements, whenever they are
                       available. These agreements can provide important information
                       on the nature of proposed activities.
                   Ensure that all employees fill out their outside activity requests completely.
                   We found that not only were required forms incomplete, but also that
                   answers were sometimes too vague to be meaningful. It is important
                   for reviewers to have complete information because it allows them to
                   consider potential conflicts of interest and make informed
                   recommendations as to whether requests should be approved. To
                   assist employees in filling out these forms properly, FDA could
                   develop standardized checklists that would provide employees with
                   guidance to ensure that all proper documentation is submitted and
                   complete. In no instance should FDA approve an outside activity
                   when documentation is incomplete.
                   Cross-check financial disclosure forms with employees’ outside activities for
                   the previous year. We found that outside activities were not always
                   properly disclosed on the applicable financial statements as required
                   by OGE regulations.36 Ensuring disclosure on these forms promotes
                   transparency in employees’ outside affiliations and earnings. It also
                   serves as another check on whether employees are free of conflicts of
                   interest. FDA has already indicated that it will begin performing this
                   annual cross-check; we encourage FDA to develop a policy that
                   explicitly requires this annual review, which will help ensure that
                   employees are accurately reporting required information.
                   Address the Inadequacies in the Review Process for Outside Activities
                   Develop complete policies and procedures on outside activities for all centers
                   and employees. The FDA Ethics and Integrity Staff maintains a Web
                   site with information on outside activities, including the supplemental
                   regulations, recent advisories, and directions for completing the HHS­
                   520 form. However, these policies and procedures do not address many
                   key aspects of the process that we found to be problematic. Despite the

 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                     21
R   E C O        M M E N D A T                  I O N     S


                      problems we found, staff reviewers at only one of eight centers indicated
                      that a lack of clear policies posed a major challenge.

                      Although FDA provides some guidance for outside activities on its ethics
                      Web site, it lacks agency-wide policies and procedures. Furthermore,
                      not all centers maintain their own written procedures. To ensure that
                      employees are aware of the ethics rules for outside activities and to
                      ensure consistency, it is important that FDA develop standard agency-
                      wide policies and procedures that address how to submit requests, as
                      well as how to review requests. These policies and procedures should
                      encompass the recommendations we offer in this report. FDA is
                      currently developing policies and procedures for reviewing outside
                      activities and intends to distribute them to staff upon completion.
                      Ensure that outside activity requests are approved before their scheduled start
                      dates. HHS regulations require that all approvals occur prior to start
                      dates.37 However, we found that many outside activity requests are still
                      being approved after the start date. FDA should reemphasize the
                      expectation that centers comply with these regulations and should
                      ensure that centers are in compliance.

                      Further, it is important for centers to collect information when
                      employees come forward after the fact to disclose activities, as this
                      provides a record of employees’ noncompliance and the nature of the
                      activities conducted. However, this does not mean that activities should
                      be approved when they are disclosed after the start date. In fact, if
                      centers discover that ongoing or completed outside activities are not
                      allowable, appropriate disciplinary action should be taken
                      (e.g., counseling, written or oral reprimands, requiring the employee to
                      return any compensation, prohibiting participation in future outside
                      activities, and, in the most extreme circumstances, removing the
                      employee). Even for cases in which outside activities are allowable,
                      FDA should consider taking appropriate disciplinary action, especially if
                      employees demonstrate patterns of submitting late requests.

                      To help ensure that there is adequate time for a careful, thorough
                      review of each request, FDA should establish an appropriate timeframe
                      for employees to submit their requests. This should allow time for
                      reviewers to conduct their reviews and follow up with the employees, if
                      necessary, for clarification. We recognize that such a deadline may not
                      always be feasible, but we encourage FDA to use the deadline whenever
                      possible.



    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                   22
R   E C O        M M E N D A T                  I O N     S


                      Ensure that activities are approved for periods not exceeding the maximum
                      amount of time allowed by HHS or FDA. We found seven activities that
                      FDA approved for more than 5 years, in violation of its policy at the
                      time of approving outside activities for a maximum of 5 years. Recently,
                      FDA changed its policy so that outside activities can only be approved
                      for 1-year periods.38 FDA must ensure that its employees and reviewers
                      comply with this policy.
                      Ensure that each outside activity receives it own separate review. We found
                      three instances in which employees requested approval for multiple
                      outside activities on the same forms, and one additional instance in
                      which an employee said only that he would review articles for journals,
                      but did not provide the names of the journals or publishers. FDA must
                      ensure that each outside activity request receives its own complete and
                      independent review. Each request should be submitted individually,
                      with its own supporting documentation. This will help ensure that
                      reviewers are able to thoroughly review each individual proposed
                      activity for potential conflicts of interest.
                      Require recusals, if needed, to be made in writing and disseminated to
                      immediate supervisors and other key personnel for all outside activities that are
                      related to employees’ official duties. Pursuant to the prohibition of
                      18 U.S.C. § 208 and OGE regulations, all employees who participate in
                      outside activities are obligated to recuse themselves—in other words
                      disqualify themselves—from any official duty matters that may create
                      actual or apparent conflicts of interest unless they request and receive a
                      waiver or authorization.39 OGE guidance suggests that written recusals
                      can help to prevent conflicts of interest from arising.40
                      All employees participating in outside activities are supposed to receive
                      two forms, the “Notice to Applicants for Prior Approval of Outside
                      Activities” and “Excerpts from the Standards of Ethical Conduct,” which
                      mention the requirement that employees recuse themselves, but do not
                      include further details. These materials are included in the revised
                      HHS-520 form. Recusals protect employees who are participating in
                      outside activities by allowing for the establishment of screening and
                      gatekeeping practices that help to ensure that employees do not
                      encounter conflicts between their official duties and outside activities.41
                      Having a recusal in writing is important because it provides a way to
                      inform supervisors and subordinates of a disqualification and its scope.
                      It also serves as a point of accountability. Supervisors and other key
                      personnel who are informed of recusals can serve as important checks

    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                     23
R   E C O        M M E N D A T                  I O N     S


                      on employees to ensure that they are meeting their recusal obligations.
                      We recognize that simply by recommending approval of an outside
                      activity a supervisor is acknowledging that an employee is obligated to
                      recuse himself or herself whenever necessary. However, the process of
                      an employee writing a separate recusal statement and the supervisor
                      reviewing that statement provides an opportunity for important,
                      deliberate discussion and planning that may not arise in the absence of
                      a written statement.

                      Further, we recognize that if recusals are very widely disseminated,
                      there are implications for employee privacy. However, at the very least,
                      an employee’s immediate supervisors should be aware of any recusal.
                      Supervisors serve as gatekeepers who can ensure that information
                      implicated in employees’ recusals does not reach those employees.
                      Ensure that supervisors are notified of all approvals and disapprovals. We
                      found that supervisors were not systematically notified of final decisions
                      on outside activity requests. In addition to being aware of any recusals,
                      it is important for the integrity of the process that all relevant parties
                      are informed of final decisions regardless of outcome. Supervisors can
                      play an important role in ensuring that their employees’ work remains
                      free of conflicts even after activities are approved as job duties and
                      assignments change over time.
                      Enhance training related to outside activities. Existing OGE regulations
                      require annual ethics training for only those employees who file
                      financial disclosure forms.42 The regulations do not require annual
                      ethics training for all employees. We recommend that FDA require all
                      employees, regardless of whether they file financial disclosure forms, to
                      participate in annual ethics training that addresses outside activities.
                      The fact that so many of the HHS-520 forms we reviewed contained
                      deficiencies signaled to us that employees may need additional training
                      on how to adequately complete these forms.

                      In addition to training all employees, FDA should also require all
                      supervisors to receive regular training on how to review requests for
                      outside activities. Supervisors play a critical role in the review process,
                      and therefore they should know how to conduct these reviews
                      effectively. Further, all staff reviewers and final approving officials
                      should receive training on how to review requests.
                      Consider centralizing some or all aspects of the review process for outside
                      activities. FDA already has a centralized ethics office, the Ethics and
                      Integrity Staff, that reviews all financial disclosure forms. This office

    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                  24
R 	E C O      M M E N D A T                  I O N     S


                   currently maintains copies of all outside activity requests. Further, it
                   has begun to perform an additional check of outside activity requests
                   submitted by FDA employees after final determinations have been made
                   within requesting employees’ respective centers. Staff reviewers
                   indicated that they frequently contact the Ethics and Integrity Staff
                   with questions on proposed outside activities.

                   FDA may have much to gain in terms of consistency and complete
                   documentation by centralizing all or some facets of the outside activities
                   review process, including:
                   o 	 Centralized training for all employees, supervisors, staff
                       reviewers, and final approving officials;
                   o 	 Centralized routine internal audits of the outside activity review
                       process conducted by the centers; and
                   o 	 Centralized decisionmaking regarding outside activity requests.

                   We recognize that centers vary in size and mission and that taking
                   steps toward centralization may be challenging. Further, the presence
                   of reviewers in the centers may serve as a reminder of the important
                   role of ethics in the day-to-day business of FDA. Entirely removing the
                   current role of reviewers from the centers may have the effect of losing
                   specialized knowledge regarding (1) the activities common to individual
                   centers, and (2) the evolving duties and activities of center employees
                   who are engaged in outside activities.

                   Yet, consolidating the oversight of these functions into one area with
                   full-time experts may have significant benefits. First and foremost, it
                   would allow FDA to further develop the knowledge and experience of its
                   cadre of full-time ethics officials, whose expertise in the review of
                   outside activities would continue to evolve. Currently, the review of
                   outside activities is a collateral duty for some staff.

                   Centralization could help ensure the independence of the
                   decisionmaking process, since the Ethics and Integrity Staff is more
                   removed than current reviewers from the employees in the centers.
                   Reviewers would not be making decisions regarding their immediate
                   colleagues. Further, a central ethics staff would be in a better position
                   than individual center staff to ensure that financial disclosure forms
                   and outside activity requests correspond, as the review of financial
                   forms is already a centralized duty of the Ethics and Integrity Staff.




 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                               25
R   E C O        M M E N D A T                  I O N     S


                      Finally, centralization would provide FDA with the ability to conduct
                      analysis to identify potentially problematic trends within and across
                      centers over time.


                      SUMMARY OF AGENCY COMMENTS
                      In its comments, FDA notes a variety of HHS and agency initiatives
                      that address the recommendations we made. For example, FDA
                      describes how the recently revised HHS-520 form will capture
                      additional information on all proposed outside activities. Further,
                      FDA is creating written policies and procedures regarding outside
                      activities and has enhanced aspects of its outside activities training.
                      FDA also identifies some of the potential benefits of outside activities.

                      One area with which FDA takes issue is our discussion of recusals.
                      FDA points out that the HHS-520 form itself provides information on
                      recusal obligations to employees, and that by recommending approval
                      of an outside activity, a supervisor acknowledges that an employee
                      will recuse himself or herself whenever appropriate. FDA also
                      suggests that our recommendation regarding recusals implies that
                      when a written recusal is made, an activity that otherwise would not
                      be approved because of a conflict of interest becomes approvable.

                      For FDA’s complete comments, see Agency Comments, page 54.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      While this review was underway, both HHS and FDA announced or
                      implemented initiatives aimed at strengthening the review process for
                      outside activities. We recognize that the revised supplemental
                      regulations and FDA’s forthcoming policies and procedures address
                      some of the recommendations we make in this report. We encourage
                      HHS and FDA to continue their efforts to improve the outside activities
                      review process.

                      In response to FDA’s comments about recusals, we reiterate that
                      written recusals, when necessary, are protective of employees who
                      participate in outside activities. As OGE has observed,
                      “Documentation, whether or not required, provides greater protection
                      both for the individual employee and the agency with regard to the
                      scope and terms of the commitment to recuse.”43 The process of an
                      employee writing a recusal statement and the supervisor reviewing that
                      statement provides an opportunity for important, deliberate discussion


    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                26
R   E C O        M M E N D A T                  I O N     S


                      and planning that may not arise in the absence of a written statement.
                      That written recusal statement may be made somewhere on the HHS­
                      520 form itself, or in a separate e-mail or memorandum.

                      Further, we reiterate that written recusals allow for the establishment
                      of screening and gatekeeping practices that help to ensure that
                      employees do not encounter conflicts between their official duties and
                      outside activities. As OGE has stated, “. . . a screening arrangement
                      creates a viable process for preventing covered matters from coming
                      before an employee. This, in turn, could prevent a violation of an
                      employee’s recusal obligations.”44 We do not mean to imply that
                      otherwise-problematic activities are approvable where recusals are
                      present; rather, recusals inform supervisors and coworkers of potential
                      conflicts that could arise during the course of an outside activity. Under
                      no circumstances should FDA approve outside activities that pose
                      conflicts of interest, and in fact, we found no evidence that it has.




    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                              27
Δ   E N D N O T E S                           





                   1Wilman, D. December 7, 2003. Stealth Merger: Drug Companies and
                  Government Medical Research. The Los Angeles Times: A1, A32-33.

                   2   5 CFR Part 2635.

                   3   5 CFR § 2635.801(d)(5). 


                   4   5 CFR § 2635.802(b). 


                   5   5 CFR § 2635.801(c). 


                   6   5 CFR § 2634.202. 


                   7 Food and Drug Administration memorandum to all FDA employees, 

                  June 4, 2004.

                   8   5 CFR § 5501.

                   9   5 CFR § 5501.106(d).

                   10 5 CFR § 5501.106(c)(3). This section of the supplemental regulations
                  remained essentially unchanged under the interim final rule.
                  70 Fed. Reg. 5543, 5559 (Feb. 3, 2005).

                   11   5 CFR § 5501.101.

                   12   5 CFR § 5501.106(d)(2).

                   13 70 Fed. Reg. 5543 (Feb. 3, 2005). The final rule was issued in
                  70 Fed. Reg 51559 (Aug. 31, 2005).

                   14   5 CFR § 5501.106(d)(4).

                   15   70 Fed. Reg. 5543,5559 (Feb. 3, 2005).

                   16  The FDA Deputy Ethics Counselor is now the final approving official
                  for all outside activity requests.




OEI-01-04-00400     OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                  28
                    17Department of Health and Human Services memorandum to Deputy
                  Ethics Counselors and Ethics Contacts, January 27, 2004.

                    18Further, staff reviewers indicated that additional individuals may
                  review requests or comment before the final decision is made.

                     Food and Drug Administration memorandum to all FDA employees,
                    19

                  June 4, 2004.

                    205 CFR § 5501.106(d)(4). At the time this review was conducted, the
                  regulation stipulated that “Approval shall be granted unless it is
                  determined that the outside employment or other outside activity is
                  expected to involve conduct prohibited by statute or Federal
                  regulation . . . .” In the interim final rule of February 2005, the standard of
                  approval is higher: “Approval shall be granted only upon a determination
                  that the outside employment or other outside activity is not expected to
                  involve conduct prohibited by statute or Federal regulation . . . .”
                  [emphasis added].

                    21We aggregated two of FDA’s classifications of outside activities:
                  Professional and Consultative Services (295), and Consulting (65).

                    22   Staff reviewers at two centers described it as not being a challenge at
                  all.

                    23Department of Health and Human Services memorandum to Deputy
                  Ethics Counselors and Ethics Contacts, August 13, 2004, p. 1.

                    245 CFR § 2634.307 for public filers; 5 CFR § 2634.907(a)(6) for
                  confidential filers.

                     Food and Drug Administration memorandum to all FDA employees,
                    25

                  June 4, 2004.

                     5 CFR § 5501.106(d)(1). This expectation remains the same in the
                    26

                  February 2005 interim final rule. 70 Fed. Reg. 5543, 5559 (Feb. 3, 2005).

                    27For initial outside activity requests that were submitted prior to the
                  start dates listed on those requests, the median amount of time between
                  employees’ signatures and final approving officials’ signatures was




OEI-01-04-00400     OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                        29
                  12.5 calendar days. Of the 16 initial outside activity requests for which we
                  could perform this calculation, 8 were submitted less than 12.5 calendar
                  days in advance.

                   28 Food and Drug Administration memorandum to all FDA employees,
                  October 4, 2004.

                   29 Food and Drug Administration memorandum to all FDA employees,
                  October 4, 2004. Also, the February 2005 interim final rule calls for
                  approvals not to exceed 1 year.

                   30 5 CFR § 2635, Subpart D (for conflicting financial interests) and
                  5 CFR § 2635, Subpart E (for appearance of loss of impartiality).

                   31 U.S. Office of Government Ethics memorandum to Designated Agency
                  Ethics Officials (“Recusal Obligation and Screening Arrangements”),
                  April 26, 1999. OGE referenced and elaborated on this 1999 memorandum
                  in a subsequent memorandum to Designated Agency Ethics Officials,
                  General Counsels, and Inspectors General (“Effective Screening
                  Arrangements for Recusal Obligations”), June 1, 2004.

                   32 Food and Drug Administration memorandum to all FDA employees,
                  October 28, 2004.

                   33   70 Fed. Reg. 5543, 5559 (Feb. 3, 2005).

                   34 5 CFR § 2638.704(a) for public filers; 5 CFR § 2638.705(a)(3) for
                  confidential filers.

                   35 Additionally, the interim final rule calls for supervisors to prepare
                  statements “. . . addressing the extent to which the employee’s duties are
                  related to the proposed outside activity . . . .” 70 Fed. Reg. 5543, 5559
                  (Feb. 3, 2005).

                   36 5 CFR § 2634.307 for public reports; 5 CFR § 2634.907(a)(6) for
                  confidential reports.

                   37 5 CFR § 5501.106(d)(1). The requirement for prior approval remains
                  the same in the February 2005 interim final rule.




OEI-01-04-00400     OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                    30
                   38 Food and Drug Administration memorandum to all FDA employees,
                  October 4, 2004. Also, the February 2005 interim final rule calls for
                  approvals not to exceed 1 year.

                   39 5 CFR § 2635, Subpart D (for conflicting financial interests) and
                  5 CFR § 2635, Subpart E (for appearance of loss of impartiality).

                   40 U.S. Office of Government Ethics memorandum to Designated Agency
                  Ethics Officials (“Recusal Obligation and Screening Arrangements”),
                  April 26, 1999. OGE referenced and elaborated on this 1999 memorandum
                  in a subsequent memorandum to Designated Agency Ethics Officials,
                  General Counsels, and Inspectors General (“Effective Screening
                  Arrangements for Recusal Obligations”), June 1, 2004.

                   41   Ibid.

                   42 5 CFR § 2638.704(a) for public filers; 5 CFR § 2638.705(a)(3) for
                  confidential filers.

                   43 U.S. Office of Government Ethics memorandum to Designated Agency
                  Ethics Officials, April 26, 1999, p. 2.

                   44  U.S. Office of Government Ethics memorandum to Designated Agency
                  Ethics Officials, General Counsels, and Inspectors General, June 1, 2004,
                  p. 2.




OEI-01-04-00400     OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                               31
Δ   A P P E N D I X                     ~        A      



                  METHODOLOGY
                  FDA Database
                  FDA provided us with a copy of a database maintained by the Ethics
                  and Integrity Staff that contained information on all outside activity
                  requests submitted by all FDA employees between CYs 2000 and 2003.
                  We used this database to make summary statements about the number
                  and nature of outside activities at FDA as a whole.

                  Throughout this report, we analyze data from the timeframe between
                  CYs 2000 and 2003. We chose this period because it allowed us to
                  examine trends by year. Further, complete data for CY 2004 were not
                  available, and some outside activities policies and procedures changed
                  during CY 2004.
                  File Reviews
                  We conducted a retrospective review of all outside activity requests that
                  senior-level employees submitted to FDA between CYs 2000 and 2003.
                  We defined senior-level employees to be those who were required to file
                  SF-278 public disclosure forms as of January 1, 2004. FDA provided us
                  with a list of 90 employees who met that criterion. This group included,
                  but was not limited to, center and office directors and deputy directors.

                  We focused our review on senior-level employees because these
                  employees may be most likely to engage in outside activities that
                  involve substantial influence and compensation, and therefore may be
                  most likely to pose the greatest risk for FDA in terms of potential
                  conflicts of interest. However, restricting our review to employees in
                  this group presents some limitations. For example, it may be the case
                  that employees who do not hold senior-level positions are more likely to
                  engage in high-risk, high-compensation outside activities.

                  We requested outside activity request forms (HHS-520 forms) and
                  supporting documentation for all outside activities requested by these
                  senior-level employees within the timeframe of our review. Supporting
                  documentation that we received included, as appropriate:
                  o   Public Financial Disclosure (SF-278) Reports,

                  o   Confidential Financial Disclosure (OGE-450) Reports,

                  o   Correspondence,

                  o   Reviewer notes, and

                  o   Letters of invitation.

OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                              32
A   P   P E N D       I X      ~       A


                      We considered a request to be within the timeframe of our review if the
                      date the employee signed the request fell between January 1, 2000, and
                      December 31, 2003. We received 55 outside activity requests from FDA
                      that met this criterion. We did not assess whether employees conducted
                      any additional outside activities between 2000 and 2003 that were not
                      reported in outside activity requests, which represents a potential
                      limitation of our review. However, the responsibility for submitting
                      request forms rests with employees.

                      Our review included initial requests, revised requests, and renewal
                      requests. An initial request is made when an employee submits an
                      HHS-520 for the first time for a particular activity. A revised request
                      would be submitted if an employee had to change information provided
                      on an initial request. A renewed request is submitted if an activity
                      continues beyond the end date originally stated in the initial request.
                      Our population of approved outside activities included initial requests,
                      renewals, revised requests, and outside activity requests that did not
                      specify the request type. Because we intended to analyze all outside
                      activity requests submitted in the timeframe of our study, we included
                      all types of requests regardless of whether the supervisor or final
                      approving official provided complete information.

                      Our file review included three methodologies: (1) a descriptive review,
                      (2) a completeness review, and (3) a compliance review.
                      Descriptive review. For each outside activity request in our timeframe,
                      we extracted the details of the outside activity from the HHS-520 and
                      supporting documents into a Microsoft Access® database. If the amount
                      of compensation for the activity was listed on the HHS-520, the
                      applicable financial disclosure form, or any other documentation in the
                      file, we recorded that. Finally, we noted any additional documentation
                      that the employee submitted as part of the outside activity request. We
                      tallied the number and nature of outside activities overall, as well as by
                      year, activity type, compensation type, institute, employee type, and
                      time commitment. When an employee provided an estimated range for
                      the time commitment, we used the midpoint in our analysis.
                      Completeness review. We calculated the extent to which forms were
                      filled out completely and correctly. For each outside activity request in
                      our timeframe, we documented in our database the dates on which the
                      employee, the supervisor, and the final approving official signed off on
                      the outside activity request. We also recorded, whenever applicable,
                      whether or not the employee had listed the outside activity on his or her

    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                              33
A   P   P E N D       I X      ~       A


                      financial disclosure form (SF-278 or OGE-450) for that year.1 We
                      documented the number of missing signatures, and also noted other
                      missing items of information on the HHS-520 form.
                      Compliance review. We reviewed all approved outside activity requests
                      that senior-level employees submitted between January 1, 2000, and
                      December 31, 2003, to determine whether the activities complied with
                      the pertinent requirements for avoiding conflicts of interest.

                      We used the following statutes, regulations, and policies as our criteria:
                      o 	 Federal ethics laws regarding conflict of interest
                            (18 U.S.C. § 205, 18 U.S.C. § 208, and 18 U.S.C. § 209);
                      o 	 Governmentwide Standards of Ethical Conduct for Employees of
                            the Executive Branch (codified in 5 CFR § 2635);
                      o 	 HHS Supplemental Standards of Ethical Conduct
                            (codified in 5 CFR § 5501); and
                      o 	 FDA policy.

                      We compared the organizations listed on outside activity request forms
                      to the FDA yellow book listings of significantly regulated organizations
                      for each year in the period of our review to determine whether proposed
                      activities involved organizations listed as significantly regulated at the
                      time the requests were made. (An exception to the prohibition on
                      outside activities with significantly regulated organizations applies
                      where “the employment is limited to clerical or similar services (such as
                      cashier or janitorial services) in retail stores, such as supermarkets,
                      drug stores, or department stores.”)2
                      Aside from employment with significantly regulated entities, it is
                      important to note that the criteria used for our compliance review do not
                      explicitly prohibit certain types of outside activities (e.g., consulting
                      arrangements). Therefore, determining whether an outside activity

                      1	 We used this information to calculate the frequency with which outside activity requests
                        were recorded as required by regulation. For each year between CYs 2000 and 2003, we
                        determined whether an activity was ongoing by checking the start and end dates
                        provided on the HHS-520 form. If an activity was ongoing during a particular year, we
                        cross-checked the employee’s appropriate financial disclosure (if available) to determine
                        whether that activity was listed anywhere on the form. We then divided the number of
                        times that activities were disclosed in the years during which they were ongoing
                        (56 times) by the number of times activities should have been disclosed (104 times).
                        Overall, activities were only disclosed as required 54 percent of the time.
                      2	 5 CFR § 5501.106.




    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                                   34
A   P   P E N D       I X      ~       A


                      adhered to the regulations necessarily involved a judgment call on our
                      part. To increase consistency, two OIG reviewers used a standardized
                      protocol to independently review each outside activity request and any
                      available supporting documentation. A final OIG reviewer was
                      consulted to resolve cases in which the two initial reviewers disagreed.
                      For the cases in which the two initial reviewers agreed, no third
                      reviewer was used.

                      Our review included all available FDA documentation regarding these
                      activities. However, it is important to point out that these documents
                      do not necessarily include all facts known to or considered by FDA
                      reviewers at the time of their reviews. The staff reviewers we
                      interviewed indicated to us that they often do additional research to get
                      information about proposed activities.

                      In no instance was the documentation we reviewed adequate for our
                      reviewers to make a definitive determination regarding whether an
                      activity was appropriate. As demonstrated in the “Vulnerabilities”
                      section of this report, the information contained in the documentation
                      for outside activity requests was often inadequate; inadequate
                      information limits reviewers’ ability to make decisions on
                      appropriateness. Therefore, we cannot state with absolute certainty
                      that any activity was or was not allowable. Instead, we made one of
                      three determinations for each activity: (1) appears to be allowable,
                      (2) appears not to be allowable, and (3) cannot determine.

                      For the cases in which the documentation contained enough information
                      and did not appear to violate any regulations, our reviewers identified
                      the activity as “appears to be allowable,” even if more information would
                      be necessary to definitively determine that the activity was in fact
                      allowable. Our reviewers would only have identified an activity as
                      “appears not to be allowable” if the documentation indicated a violation
                      of the regulations. Finally, our reviewers identified activities as “cannot
                      be determined” when the information available was so incomplete that
                      they were unable to make a determination, or when the information
                      raised concerns that the activity may have violated the regulations.
                      Ultimately, our reviewers could not determine the appropriateness of
                      11 activities, but did determine that none of the activities violated
                      statute or regulations. However, it is quite possible that we have
                      underestimated the number of activities that should not have been
                      approved. Inadequate documentation for outside activities can,
                      intentionally or unintentionally, hide potential violations. If reviewers


    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                               35
A   P   P E N D       I X      ~       A


                      conduct additional research on requests, they may uncover and resolve
                      those potential problems before they become violations, but this may not
                      happen in every case.

                      In general, we did not seek additional information beyond what was
                      provided in the files. For example, we did not speak with any employees
                      or reviewers at FDA or research outside organizations with which
                      employees requested permission to work. As a result, an important
                      limitation of this methodology is that we cannot comment on whether
                      FDA reviewers considered additional facts during their reviews of these
                      outside activity requests.
                      We recorded, as part of our assessment, whether specific pieces of
                      additional information would have been helpful in making
                      determinations. This information included greater detail on the
                      following items: the nature of the outside activity, the nature of the
                      employee’s job duties, the difference between the outside activity and
                      the employee’s job duties, and the outside organization.
                      Interviews With FDA Staff Reviewers
                      We interviewed the employees in each of the eight centers whom FDA
                      designated as responsible for and/or most knowledgeable about the
                      review process for outside activities between CYs 2000 and 2003. We
                      refer to these employees as staff reviewers. We used a structured
                      questionnaire to conduct these interviews. The questionnaire addressed
                      centers’ procedures for reviewing outside activity requests; the training
                      that centers provide to employees, supervisors, staff reviewers, and final
                      approving officials on outside activities; staff reviewers’ approaches to
                      identifying ethics violations regarding outside activities; challenges staff
                      reviewers face in the outside activities review process; and staff
                      reviewers’ recommendations for improving processes for outside
                      activities. We conducted all interviews by telephone. We also spoke
                      with FDA Ethics and Integrity Staff to learn of initiatives FDA has
                      planned or underway to improve its system for addressing outside
                      activities. FDA Ethics and Integrity Staff served as a resource for
                      clarifying our questions on FDA ethics policy throughout our review.




    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                36
A   P   P E N D       I X      ~       A


                      Procedure Review
                      We requested operating procedures related to outside activities from all
                      eight centers. FDA allows, but does not require, its centers to develop
                      written operating procedures for implementing FDA policies on outside
                      activities. Staff reviewers at five centers indicated that their centers
                      have written procedures and provided those procedures to us. These
                      included standard operating procedures, Web site printouts, and
                      memoranda. We counted the number of centers that maintained these
                      documents and compared the documents to one another.




    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                             37
Δ   A P P E N D I X                     ~         B        



                  NATURE OF OUTSIDE ACTIVITIES
                  Eleven percent of all FDA employees received approval to
                  participate in a total of 2,592 outside activities between
                  CYs 2000 and 2003.
                  FDA approved all but 14 outside activity requests. Of the 13,973 employees
                  at FDA, 1,576 employees submitted 2,606 outside activity requests
                  between CYs 2000 and 2003. FDA approved 2,592 requests for
                  1,571 employees and disapproved 14 requests. (See Table 1 below.) It is
                  not surprising that the overwhelming majority of requests were
                  approved. For the period covered by this review, HHS supplemental
                  regulations called for outside activity requests to be approved unless
                  they clearly violated statute.3 The interim final rule calls for a higher
                  standard of approval: activities are only to be approved “upon a
                  determination that [activities are not] expected to involve conduct
                  prohibited by statute or Federal regulation . . . .” Further, FDA
                  employees may confer with supervisors, staff reviewers, or Ethics and
                  Integrity Staff before formally submitting requests to ensure that their
                  proposals are approvable.

                  The number of requests for outside activities increased between
                  CYs 2001 and 2002. One possible explanation for this increase may be
                  the overall growth of the FDA workforce between CYs 2001 and 2002.



                   Table 1. Number of FDA Employees and
                   Outside Activity Requests by Year, CY 2000–2003

                                                                               Number of           Number of
                                                      Number
                      Calendar Year                                          Outside Activity   Approved Outside
                                                  of Employees *
                                                                               Requests         Activity Requests

                            2000                       13,047                            515           515

                            2001                       13,104                            515           512

                            2002                       14,038                            784           779

                            2003                       13,973                            792           786

                           Totals                         -                         2,606             2,592
                  * Reported as the number of employees at the end of the fiscal year.
                  Source: Office of Inspector General analysis of FDA data, 2005.



                  3 5 CFR § 5501.106.




OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                                      38
A   P   P E N D       I X        ~          B


                      Most employees received approval for one outside activity, but a few received
                      approval for more than five. Of the 1,571 employees who received approval
                      to participate in outside activities between CYs 2000 and 2003,
                      68 percent received approval for only 1 activity, and another 20 percent
                      received approval for 2 outside activities. Three percent of employees
                      received approval for more than 5 activities over the 4-year period. The
                      maximum was 38 approved outside activities for 1 employee between
                      CYs 2000 and 2003. (See Table 2 below.)




                       Table 2. Number of Approved Outside Activities
                       for FDA Employees, CY 2000–2003

                                Number of                            Number of                  Percent of
                            Approved Activities                 Employees Participating   Employees Participating

                                        1                                 1,066                     68

                                        2                                  311                      20

                                        3                                    92                       6

                                        4                                    49                       3

                                        5                                    16                       1

                                        6                                    17                       1

                                     7 or more                               20                       1

                                      Totals                             1,571                     100
                       Source: Office of Inspector General analysis of FDA data, 2005.




    OEI-01-04-00400   OUTSIDE ACTIVITIES        OF   FDA EMPLOYEES                                              39
A   P   P E N D       I X         ~      B


                      Employees who file the confidential financial disclosure form accounted for 80
                      percent of the approved outside activities. Employees who are required to
                      annually file the confidential financial disclosure form (OGE-450)
                      accounted for 80 percent of approved outside activities between
                      CYs 2000 and 2003. Employees who do not file any financial disclosure
                      accounted for 18 percent of approved outside activities, and employees
                      who file the public financial disclosure form accounted for only 2 percent
                      of approved outside activities, between CYs 2000 and 2003.
                      (See Table 3 below.)




                       Table 3. Number of Approved Outside Activities
                       for FDA Employees by Filer Status, CY 2000–2003

                                                              Number of          Percent of
                                                              Approved           Approved        Number of    Percent of
                                  Filer Status
                                                               Outside            Outside       Employees *   Employees
                                                              Activities         Activities

                       Confidential Filer                         2,084                80          7,374          53

                       Nonfiler                                    457                 18          6,463          46

                       Public Filer                                  51                 2            136           1

                            Totals                                2,592              100          13,973         100
                       * Reported as the number of employees at the end of fiscal year 2003.

                       Source: Office of Inspector General analysis of FDA data, 2005.





                      Certain FDA employees must disclose their compensated outside
                      activities on an annual financial disclosure form, which may be public or
                      confidential, depending on an employee’s pay. By statute, some
                      employees who meet income or appointment requirements must file the
                      public financial disclosure form, the SF-278. FDA requires additional
                      employees in positions of significant decisionmaking authority to
                      annually file the confidential financial disclosure form, the OGE-450.
                      This form requires employees to list certain compensated and
                      uncompensated positions. Most employees, however, are not required to
                      file any sort of financial disclosure.




    OEI-01-04-00400   OUTSIDE ACTIVITIES     OF   FDA EMPLOYEES                                                        40
A   P   P E N D            I X          ~        B


                             Employees at the two largest centers accounted for 60 percent of the approved
                             outside activities. Employees at the Center for Drug Evaluation and
                             Research received approval for 812 outside activities, and employees at
                             the Office of Regulatory Affairs received approval for 750 approved
                             outside activities, between CYs 2000 and 2003. The percentage of
                             employees participating in outside activities, by center, ranged from
                             7 percent at the Office of the Commissioner to 14 percent at the Center
                             for Veterinary Medicine. (See Table 4 below.)




           Table 4. Approved Outside Activities for FDA Employees,
           by Center, CY 2000–2003

                                                                    Number of       Percent of
                                                                                                  Number of       Percent of
                                                                    Approved        Approved
                                                                                                 Participating   Participating
                                 Center                              Outside         Outside
                                                                                                    Center          Center
                                                                     Activity        Activity
                                                                                                  Employees      Employees **
                                                                    Requests        Requests

           Center for Drug Evaluation and Research                        812          31             423             13

           Office of Regulatory Affairs                                   750          29             536             13

           Center for Food Safety and Applied Nutrition                   259          10             131             10

           Center for Biologics Evaluation and Research                   244            9            116             10

           Center for Devices and Radiological Health                     205            8            142              9

           Office of the Commissioner                                     142            5            113              7

           Center for Veterinary Medicine                                 130            5             78             14

           National Center for Toxicological Research                      50            2             32              9

              Totals                                                   2,592            *           1,571              -
          * Column does not sum to 100 due to rounding.

          ** Reported as the number of employees at the end of fiscal year 2003.

          Source: Office of Inspector General analysis of FDA data, 2005.





    OEI-01-04-00400          OUTSIDE ACTIVITIES      OF   FDA EMPLOYEES                                                    41
A   P   P E N D       I X        ~          B
.

                      The most common types of approved outside activities involved teaching,
                      lecturing, speechwriting, and presenting. Nineteen percent of the approved
                      outside activities involved teaching, lecturing, speechwriting, and
                      presenting. Seventeen percent involved what FDA designated as
                      “miscellaneous” activities, and another 14 percent involved consulting
                      or providing professional or consultative services. (See Table 5 below.)




                       Table 5. Nature of Approved Outside Activities
                       for FDA Employees, CY 2000–2003

                                                                                                         Number of       Percent of
                                                                                1                        Approved        Approved
                                                     Type of Outside Activity
                                                                                                          Outside         Outside
                                                                                                         Activities      Activities

                       Teaching, Lecturing, Speechwriting, and Presenting                                      490             19
                                        2
                       Miscellaneous                                                                           436              17
                                                                                        3
                       Consulting, Professional, and Consultative Services                                     360              14

                       Trade, Industrial, and Service Occupations                                              294              11
                                                                                    4
                       Writing, Editing, and Serving on Editorial Boards                                       227               9

                       Clinical Professional Practice                                                          221               9

                       Holding Office in a Professional Organization or Society                                218               8

                       Sales and Clerical Positions                                                            189               7

                       Serving on a Board or Committee                                                          65               3
                                                                                                 5
                       Private Professional Practice and Other Professional Activities                          55               2

                       Self-Employed Positions                                                                  37               1

                            Totals                                                                           2,592             100
                       1 We report the types of activities by the classifications FDA made in its database of outside


                       activities.

                       2
                         This category included, for example, a variety of self-employed positions that were categorized

                       as miscellaneous before FDA created a separate self-employed activity category in the database.

                       3
                         We aggregated two of FDA's classifications of outside activities: Professional and Consultative

                       Services (295) and Consulting (65).

                       4
                         We aggregated two of FDA's classifications of outside activities: Writing and Editing (162) and

                       Writing/Editing/Member of Editorial Board (65).

                       5
                         We aggregated two of FDA's classifications of outside activities: Other Professional Activity with

                       Remuneration (35) and Private Professional Practice (20).

                       Source: Office of Inspector General analysis of FDA data, 2005.





    OEI-01-04-00400   OUTSIDE ACTIVITIES        OF   FDA EMPLOYEES                                                                   42
A   P   P E N D       I X        ~       B


                      Twenty-six percent of FDA senior-level employees received
                      approval to participate in a total of 55 outside activities
                      between CYs 2000 and 2003.
                      We defined senior-level employees as those who were required to file the
                      SF-278 public financial disclosure form as of January 2004. This group
                      includes, for example, center directors and deputy directors.
                      FDA approved all 55 outside activity requests made by senior-level employees.
                      Of the 90 senior-level employees at FDA as of January 2004,
                      23 submitted 55 outside activity requests. FDA approved all of these
                      requests. (See Table 6 below.) As described earlier in this Appendix,
                      there are several possible explanations for a high approval rate.

                      The number of senior-level employees requesting approval, and the
                      number of approvals, remained relatively constant from CYs 2000 to
                      2003.




                       Table 6. Number of FDA Senior-Level Employees and
                       Approved Outside Activity Requests by Year, CY 2000–2003

                                                               Number of Employees         Number of Approved
                               Calendar Year
                                                               Requesting Approval       Outside Activity Requests

                                     2000                                   9                       13

                                     2001                                   9                       11

                                     2002                                  12                       15

                                     2003                                  11                       16

                                     Totals                                 -                       55
                       Source: Office of Inspector General analysis of FDA data, 2005.




    OEI-01-04-00400   OUTSIDE ACTIVITIES     OF   FDA EMPLOYEES                                                 43
A   P   P E N D       I X        ~         B


                      Most senior-level employees received approval for one or two outside activities.
                      Over half of the senior-level employees at FDA received approval for
                      only one or two outside activities between CYs 2000 and 2003. The
                      median number of outside activities approved per employee was two.
                      The maximum was five approved outside activities for one employee
                      between CYs 2000 and 2003. (See Table 7 below.)




                       Table 7. Number of Approved Outside Activities
                       for FDA Senior-Level Employees, CY 2000–2003

                                   Number                             Number of                  Percent of
                                 of Activities                 Participating Employees    Participating Employees

                                       1                                     6                      26

                                       2                                     8                      35

                                       3                                     4                      17

                                       4                                     4                      17

                                       5                                     1                       4

                                     Totals                                23                        *
                       * Column does not sum to 100 due to rounding.

                       Source: Office of Inspector General analysis of FDA data, 2005.





    OEI-01-04-00400   OUTSIDE ACTIVITIES       OF   FDA EMPLOYEES                                               44
A   P   P E N D            I X          ~       B


                             Senior-level employees at three centers accounted for 64 percent of the
                             approved outside activities. Senior-level employees at the Center for Food
                             Safety and Applied Nutrition received approval for 15 outside activities
                             between CYs 2000 and 2003. At both the Center for Drug Evaluation
                             and Research and the Center for Veterinary Medicine, senior-level
                             employees received approval for 10 outside activities between CYs 2000
                             and 2003. (See Table 8 below.)




           Table 8. Approved Outside Activities for FDA Senior-Level Employees,
           by Center, CY 2000–2003


                                                                  Number of          Percent of
                                                                  Approved          All Approved    Number of
                                                                                                                    Number of
                                                                   Outside             Outside     Senior-Level
                                                                                                                   Senior-Level
                                Center                             Activity            Activity     Employees
                                                                                                                    Employees
                                                                 Requests for       Requests for     at Center
                                                                                                                   at Center **
                                                                 Senior-Level       Senior-Level   Participating
                                                                  Employees          Employees


           Center for Food Safety and Applied Nutrition                  15             27              7              18

           Center for Drug Evaluation and Research                       10             18              6              13

           Center for Veterinary Medicine                                10             18              3                7

           Office of the Commissioner                                     9             16              3              25

           Center for Biologics Evaluation and Research                   6             11              2                9

           Office of Regulatory Affairs                                   4               7             1                9

           National Center for Toxicological Research                     1               2             1                1

           Center for Devices and Radiological Health                    -               -              0                8

              Totals                                                     55              **             23             90
          * Column does not sum to 100 due to rounding.

          ** Reported as the number of senior-level employees as of January 1, 2004.

          Source: Office of Inspector General analysis of FDA data, 2005.





    OEI-01-04-00400          OUTSIDE ACTIVITIES     OF   FDA EMPLOYEES                                                       45
A   P   P E N D       I X        ~        B


                      The most common types of approved outside activities of senior-level
                      employees involved serving on a board or writing and editing.
                      Thirty-six percent of the approved outside activities for senior-level
                      employees involved serving on boards. Another 20 percent of approved
                      outside activities for senior-level employees involved writing and
                      editing. (See Table 9 below.)




                       Table 9. Nature of Approved Outside Activities
                       for FDA Senior-Level Employees, CY 2000–2003

                                                                                Number of Approved Percent of Approved
                                   Type of Outside Activity *
                                                                                 Outside Activities Outside Activities

                       Serving on a Board                                                   20             36

                       Writing and Editing                                                  11             20

                       Clinical Professional Practice                                         4              7

                       Serving on a Committee                                                 4              7

                       Lecturing                                                              4              7

                       Serving as a Professor                                                 4              7

                       Legal Consulting                                                       3              5

                       Other                                                                  2              4

                       Performing Research                                                    2              4

                       Consulting                                                             1              2

                            Totals                                                          55              **
                       * We report the types of activities by the classifications our reviewers made.

                       ** Column does not sum to 100 due to rounding.

                       Source: Office of Inspector General analysis of FDA data, 2005.





    OEI-01-04-00400   OUTSIDE ACTIVITIES      OF   FDA EMPLOYEES                                                    46
A   P   P E N D       I X        ~        B


                      The most common venues for senior-level employees’ outside activities were
                      journals and other publications, professional societies, and universities.
                      Journals and other publications, professional societies, and universities
                      each accounted for 20 percent of the approved outside activities for
                      senior-level employees. None of the activities involved the
                      biotechnology or pharmaceutical industries or any other significantly
                      regulated organizations. (See Table 10 below.)




                       Table 10. Types of Organizations With Which FDA Senior-Level
                       Employees Received Approval for Outside Activities, CY 2000–2003

                                                                               Number of Approved Percent of Approved
                              Type of Outside Organization *
                                                                                Outside Activities Outside Activities

                       Professional Societies                                             11                20

                       Journals and Publishers                                            11                20

                       Universities                                                       11                20

                       Hospitals and Clinics                                                6               11

                       Personal and Social Organizations                                    5                9

                       Financial Institutions                                               3                5

                       Law Firms                                                            3                5

                       Cannot Determine                                                     2                4

                       Charities                                                            2                4

                       Museums                                                              1                2

                            Totals                                                        55               100
                       * We report the types of organizations by the classifications our reviewers made.
                       Source: Office of Inspector General analysis of FDA data, 2005.




    OEI-01-04-00400   OUTSIDE ACTIVITIES      OF   FDA EMPLOYEES                                                   47
A   P   P E N D       I X         ~       B


                      Fifty-eight percent of approved outside activities for senior-level employees
                      involved no compensation. Employees must report on their HHS-520s the
                      type(s) of compensation they are to receive for performing outside
                      activities. An outside activity may involve more than one type of
                      compensation; employees may also perform outside activities without
                      compensation. There are no limits on the types or amounts of
                      compensation that employees may receive for outside activities.

                      Of the 20 activities for which employees reported that they would
                      receive compensation, the most common form was reimbursement for
                      travel and expenses. Of these 20 activities, we were able to obtain the
                      actual amount of compensation for only 5. Four of these five activities
                      involved reimbursement for travel and expenses ranging from $1,800 to
                      almost $32,000 per activity. The other activity involved an honorarium
                      valued between $1,000 and $15,000.4 (See Table 11 below.)




                       Table 11. Types of Compensation That FDA Senior-Level
                       Employees Received for Approved Outside Activities, CY 2000–2003

                                                                              Number of Approved Percent of Approved
                                   Type of Compensation *                      Activities Involving Activities Involving
                                                                                    This Type           This Type **

                       None                                                               32                          58

                       Expense and Travel Reimbursement                                   12                          22

                       Fees                                                                5                           9

                       Royalties                                                           2                           4

                       Honoraria                                                           1                           2

                       Salaries                                                            1                           2

                       Per Diem Payments                                                   1                           2
                       * Three outside activity requests did not indicate whether or what types of compensation would be

                       received.

                       ** Column sums to more than 100 percent because some outside activities involved more than

                       one type of compensation.

                       Source: Office of Inspector General analysis of FDA data, 2005.





                      4	 Prior to January 2004, employees were not required to report the amount of
                        compensation to be received for outside activities on the HHS-520 forms. Therefore,
                        when possible, we obtained this information from annual financial disclosure forms and
                        from employees who voluntarily disclosed the amount of compensation on their HHS-520
                        forms.



    OEI-01-04-00400   OUTSIDE ACTIVITIES      OF   FDA EMPLOYEES                                                            48
A   P   P E N D       I X      ~       B


                      This portion of our analysis regarding compensation is limited by the
                      fact that compensation amounts were self-reported by the employees.
                      We did not independently verify the types or amounts of compensation
                      that employees actually received.
                      Forty percent of approved outside activities for senior-level employees involved
                      time off, and 29 percent of these activities involved a week or more of time off.
                      To participate in outside activities, employees often have to take time
                      off from work. For the 22 outside activities for which senior-level
                      employees indicated that time off would be required, these employees
                      reported that they would take off between 1 and 36 business days from
                      work. The median amount of time employees anticipated taking off to
                      perform outside activities was 7 business days per activity.

                      As noted earlier in this report, 13 senior-level employees received
                      approval for multiple outside activities between CYs 2000 and 2003. To
                      do so, three of these senior-level employees reported taking more than a
                      month off from work over this 4-year period. Further, one senior-level
                      employee reported taking more than 7 months off from work to perform
                      outside activities between 2000 and 2003.

                      Employees may also use personal time, or hours outside of the normal
                      workday, to engage in outside activities. For 46 of the 55 senior-level
                      outside activity requests we reviewed, employees documented the
                      amount of time that would be spent on the activities. Total time spent
                      on activities, including both time off and time outside of the workday,
                      ranged from 1 to 143 calendar days per activity. The median amount of
                      time spent on outside activities, per activity, was 12.5 calendar days.
                      There are no explicit limits on the amount of time that employees may
                      use to perform outside activities.




    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                     49
Δ   A P P E N D I X                     ~        C         



                  ERRORS FOUND ON OUTSIDE ACTIVITY REQUESTS FOR
                  FDA SENIOR-LEVEL EMPLOYEES
                  The following tables illustrate: (1) the frequency of errors on FDA
                  senior-level employees’ outside activity request forms, and (2) the
                  problems we uncovered in our review of FDA senior-level employees’
                  outside activity request forms.




                   Number of Errors Found on Approved Outside Activity Requests
                   of FDA Senior-Level Employees, CY 2000–2003

                            Number of                  Number of Request Forms      Percent of Request Forms
                             Errors                         With Errors                   With Errors

                                  0                                    3                        5

                                  1                                    0                        0

                                  2                                   14                       25

                                  3                                   12                       22

                                  4                                   12                       22

                                  5                                    8                       15

                                  6                                    4                        7

                                  7                                    2                        4

                               Totals                                 55                      100
                  Source: Office of Inspector General analysis of FDA data, 2005.




OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                                 50
A   P   P E N D       I X         ~       C          



                       Errors Found on Approved Outside Activity Requests
                       of FDA Senior-Level Employees, CY 2000–2003

                                                                                         Number of   Percent of
                                         Missing Item on the HHS-520
                                                                                         Requests    Requests

                       Missing at least one of the following items                          52          95
                       HHS-520, Item 4: Grade and salary (one or both missing)              40          73
                       HHS-520, Item 18: Action taken (any part of Item 18)                 22          40
                            Item 18a: Final action                                          14          25
                            Item 18b: Final approving official signature                     9          16
                            Item 18c: Final approving official title                        14          25
                            Item 18d: Signature date                                        12          22
                       HHS-520, Item 16: Additional information attached?                   16          29
                       HHS-520: Request type                                                15          27

                       HHS-520, Item 17: Action recommended by reviewing
                                                                                             9          16
                       official (any part of Item 17)

                            Item 17a: Recommended action                                     7          13
                            Item 17b: Reviewing official signature                           4            7
                            Item 17c: Reviewing official title                               7          13
                            Item 17d: Signature date                                         5            9
                       Second page of the HHS-520                                            9          16

                       HHS-520, Item 12: Will compensation be derived from an
                                                                                             7          13
                       HHS grant or contract?

                       HHS-520, Item 8: Estimated time involved                              6          11

                       HHS-520, Item 10: If providing consultative or professional
                       services, are your would-be associates receiving or will they         5            9
                       seek, a grant or contract from a federal agency?

                       HHS-520, Item 11: Method of basis of compensation                     3            5

                       HHS-520, Item 5: Name, address and business of person
                                                                                             2            4
                       or organization for whom outside services will be performed

                       HHS-520, Item 6: Location where services will be performed            2            4
                       HHS-520, Item 3: Title of position                                    1            2

                       HHS-520, Item 9: Do your official duties relate in any way
                                                                                             1            2
                       to the proposed activity?

                       HHS-520, Item 1: Name                                                 -           -
                       HHS-520, Item 2: Organizational location                              -           -
                       HHS-520, Item 7: Nature of activity                                   -           -

                       HHS-520, Item 13: Statement that form contains true,
                                                                                             -           -
                       complete, and correct information
                       HHS-520, Item 14: Signature of employee                               -           -
                       HHS-520, Item 15: Signature date                                      -           -
                       Source: Office of Inspector General analysis of FDA data, 2005.

    OEI-01-04-00400   OUTSIDE ACTIVITIES      OF   FDA EMPLOYEES                                              51
A   P   P E N D       I X      ~       C
Δ       A P P E N D I X                     ~        D      



                      HHS AND FDA INITIATIVES
                      To strengthen the process for reviewing outside activity requests, HHS
                      and FDA have the following initiatives recently completed, planned, or
                      underway.
                      HHS Interim Final Rule
                      HHS issued an interim final rule in February 2005 that imposes new
                      responsibilities on FDA and other HHS employees who engage in
                      outside activities.5 The following are some of the provisions of the
                      interim final rule that relate to outside activities:
                      o 	 Employees must provide additional detailed information in their
                            outside activities requests. The revised HHS-520 form, released
                            in April 2005, captures significantly more information than the
                            previous version.
                      o 	 Employees must file annual reports on their outside activities.

                      o 	 Outside activities may only be approved for 1-year periods.

                      Other HHS Initiatives
                      o 	 As of January 2004, HHS employees who request approval for
                          outside activities must list the amount of compensation to be
                          received on their request forms.
                      o 	 In August 2004, the HHS Designate Agency Ethics Official sent a
                            memorandum to officials throughout HHS to remind them of the
                            importance of performing due diligence when reviewing ethics
                            forms.
                      o 	 In April 2005, HHS released a revised version of the HHS-520
                            form that captures more information than the previous version.
                      FDA Internal Review
                      o 	 In June 2004, the Acting FDA Commissioner ordered a review of
                          approximately 1,800 outside activities to assess compliance with
                          relevant ethics rules. This review found no outside activities that
                          raised concerns, except for one problematic activity of which FDA
                          was already aware.




                      5 70 Fed. Reg. 5,543, Feb. 3, 2005.




    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                 52
A   P   P E N D       I X      ~       D


                      FDA Enhanced Oversight
                      In light of the June 2004 internal review of outside activities, the
                      Acting FDA Commissioner announced several new requirements for
                      outside activities, including the following:
                      o 	 Prior to the interim final rule, FDA limited approvals for outside
                            activities to 1-year periods.
                      o 	 FDA first required center directors to be the final approving
                            officials for all outside activity requests, and later required the
                            FDA Deputy Ethics Counselor to be the final approving authority
                            for all outside activity requests. This duty cannot be delegated, as
                            it often was in the past.
                      o 	 FDA has expanded the number of employees who are required to
                            annually file the confidential financial disclosure form, the
                            OGE-450.
                      o 	 FDA will begin conducting annual reviews of outside activities in
                            which they will cross-check financial disclosure forms to
                            determine compliance with filing regulations.
                      o 	 FDA is working on a comprehensive Agency-Wide Staff Manual
                            Guide on Outside Activities, which will be released to all
                            employees upon completion.
                      FDA Enhanced Information Management
                      o 	 Prior to the release of the revised HHS-520 form in April 2005,
                          FDA employees were required to use the HHS-520-1 outside
                          activities request form, which was unique to FDA and, in part,
                          completed electronically.




    OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                                  53
Δ   A P P E N D I X                     ~        E      





OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES   54
A P P E N D        I X      ~       E          





 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES   55
A P P E N D        I X      ~       E          





 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES   56
A P P E N D        I X      ~       E          





 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES   57
A P P E N D        I X      ~       E          





 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES   58
A P P E N D        I X      ~       E          





 OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES   59
Δ   A C K N O W L E D G M E N T S                           




                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections in the
                  Boston regional office. Other principal Office of Evaluation and
                  Inspections staff who contributed include:

                  Aimée Golbitz, Team Leader
                  Steven Keenan, Project Leader

                  Michael Flood, Program Analyst

                  Ayana Everett, Program Specialist

                  Elise Stein, Director, Public Health and Human Services



                  Technical Assistance

                  Barbara Tedesco, Mathematical Statistician

                  Kevin Farber, Mathematical Statistician



                  Office of Counsel to the Inspector General

                  Melinda Golub, Senior Counsel




OEI-01-04-00400   OUTSIDE ACTIVITIES   OF   FDA EMPLOYEES                               60
